<html>
<title> - AL-QAEDA'S EXPANSION IN EGYPT: IMPLICATIONS FOR U.S. HOMELAND SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 AL-QAEDA'S EXPANSION IN EGYPT: IMPLICATIONS FOR U.S. HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2014

                               __________

                           Serial No. 113-52

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-169 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001












                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania, Vice   Loretta Sanchez, California
    Chair                            William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Bennie G. Thompson, Mississippi 
Vacancy                                  (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Steven A. Cook, Senior Fellow, Middle Eastern Studies, 
  Council on Foreign Relations:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. Thomas Joscelyn, Senior Fellow, Foundation for the Defense of 
  Democracies:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Mohamed Elmenshawy, Resident Scholar at the Middle Eastern 
  Institute:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

 
 AL-QAEDA'S EXPANSION IN EGYPT: IMPLICATIONS FOR U.S. HOMELAND SECURITY

                              ----------                              


                       Tuesday, February 11, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:15 p.m., in 
Room 311, Cannon House Office Building, Representative Peter T. 
King [Chairman of the subcommittee] presiding.
    Present: Representatives King and Higgins.
    Also Present: Representative Jackson Lee.
    Mr. King. Good afternoon. The Committee on Homeland 
Security, Subcommittee on Counterterrorism and Intelligence, 
will come to order.
    Ranking Member Higgins will be here in a few moments. He 
has very kindly consented to allow us to start the hearing 
before he gets here, but he will be here just in a matter of 
moments.
    The subcommittee is meeting today to hear testimony 
examining al-Qaeda's expansion in Egypt and the implications 
for U.S. homeland security, and I will now recognize myself for 
an opening statement.
    Let me say at the outset, I really appreciate the witnesses 
coming in. I certainly regret the mix--the changes in the 
schedule today. Combination of the weather and trying to get 
enough people to vote on some key legislation involved the 
schedule for the day being changed around and, as usual, 
somebody else ends up being the victims.
    You guys were the collateral damage, unintended victims 
here, but I appreciate your patience. Certainly--from going 
through your opening statements, I certainly appreciate the 
thoughtfulness you have given to this issue.
    I will cut back on part of my opening statement other than 
to say that there is--there has been much speculation and 
thought that al-Qaeda somehow has been disseminated.
    Many of us believe that, actually, the core al-Qaeda has 
been severely damaged. There are new franchises, there are 
affiliates, there are stand-alone organizations who share the 
same philosophy as al-Qaeda, and that really is the new threat 
that we face today.
    We have seen that, obviously, in Yemen with al-Qaeda in the 
Arabian Peninsula. We have seen it in Iraq with al-Qaeda in 
Iraq. We have seen it with Boko Haram. We have seen it, to some 
extent, with al-Shabaab, who carried out the vicious attack in 
Kenya recently.
    Even though we have had many counterterrorism successes in 
Afghanistan, diminishing the foothold and control of al-Qaeda 
there, even there, senior leaders are still present and waiting 
for the U.S. withdrawal of forces this year.
    Of course, in our own country, we have many self-starters, 
we have self-radicalized and those who have been radicalized 
over the internet. But today's hearing is focused on the 
dangerous surge of terrorist activity in Egypt.
    There has been significant reporting over the last few 
years about jihadist networks taking hold in the eastern Sinai 
Peninsula. These groups have launched attacks against the 
Egyptian military, against Israel, civilian shipping in the 
Suez Canal and other targets.
    As is often the case with such safe havens, there are many 
gaps in our understanding of these groups. Their size, their 
relationship to one another, and their operational capability 
are not clear.
    However, in the last month alone, terrorists have 
assassinated a senior Egyptian official, bombed the Cairo 
police headquarters, shot down a military helicopter, and fired 
rockets into Israel.
    The speed with which these groups have gathered strength 
and conducted sophisticated operations not only in the Sinai, 
but in central Cairo, is noteworthy.
    The apparent sophistication of these groups and indications 
that they are linked to al-Qaeda raise serious counterterrorism 
issues and emerging homeland security concerns. Egypt's role in 
the formation and history of al-Qaeda has made it a target for 
many years.
    The Egyptian Ayman Zawahiri has led al-Qaeda since the 
death of bin Laden, and the ideology that inspired al-Qaeda was 
developed in Egypt by Zawahiri, who I said is an Egyptian.
    His brother Muhammed was arrested outside of Cairo in 
August 2013 with speculation that he was working with jihadist 
networks in the Sinai.
    Just last year, the Egyptian Muhammad Jamal Network was 
designated a foreign terrorist organization by the Department 
of State for its ties to al-Qaeda and for using the AQAP 
network to smuggle fighters into training camps.
    However, what is perhaps most important is that these 
groups give strong indications of being allied and aligned with 
al-Qaeda's global jihad.
    In his recent open testimony before the House Permanent 
Select Committee on Intelligence, when asked whether al-Qaeda 
affiliates in Syria presented a threat outside of Syria, the 
director of the CIA acknowledged ``Any group that has its 
origins in al-Qaeda or are still associated with al-Qaeda 
presents a threat.''
    If this is true, working with the Egyptian Government to 
effectively fight jihadist networks in the Sinai should be a 
primary objective in our relationship with Cairo.
    Unfortunately, the administration's decision to cut 
military aid in September has only hampered this effort and, I 
believe, displays a dangerous indifference to our shared 
interests with Egypt, which is defeating jihadist networks 
operating in the Sinai and throughout the country.
    These groups threaten innocent Egyptians, American 
interests, and our ally Israel. Given what we have witnessed 
with the growth of AQAP, which prior to 2009, the United States 
did not consider posing a threat to the U.S. homeland, we have 
to monitor al-Qaeda elements in the Sinai for emerging threats 
to the homeland.
    Furthermore, the instability caused by the Egyptian 
revolution has provided a period of time in which large groups 
of people moved into, out of, and around the country with less 
stringent oversight. Even so, removing a person's weapons and 
other illicit goods across Egypt's border with Libya and Sudan 
continues unabated.
    For these and for other reasons, the potential exists that 
al-Qaeda-linked extremists could take advantage of a permissive 
operating environment to plan attacks against the United 
States.
    This has heightened the need for the United States to work 
with the Egyptian and Israeli Governments on defeating and 
disrupting jihadist networks. Perhaps more than ever before, 
ensuring that Egypt can fight al-Qaeda is in the best interest 
of the United States.
    As Chairman of the Subcommittee on Counterterrorism and 
Intelligence of this Homeland Security Committee, I feel it is 
necessary to begin a discussion on this emerging threat.
    I look forward to hearing from our witnesses today and who 
these groups are, what they are capable of, and how to work 
with our partners to defeat them.
    Now, with perfect timing, I am pleased to recognize for an 
opening statement the Ranking Member of the committee, Mr. 
Higgins of New York.
    Mr. Higgins. With your permission, Mr. Chairman, I will 
suspend with my opening statement and submit it for the record. 
I know these gentleman have been waiting. So why don't we dive 
right into it.
    [The statement of Mr. Higgins follows:]
               Statement of Ranking Member Brian Higgins
                           February 11, 2014
    The United States relationship with Egypt is fractured and as we 
wait and see where Egypt's current political state leads the country, 
we must be mindful of our past relationship with Egypt while keeping an 
eye on any emerging threats from the region.
    The United States has provided significant military and economic 
assistance to Egypt since the late 1970s. Between 1948 and 2011 the 
United States has given Egypt about $71.6 billion in bilateral military 
and economic aid.
    Last month, this Congress voted to restore $1.5 billion in aid to 
Egypt. Aside from Israel, that is more money than the United States has 
given to any country. The United States has invested in Egypt to 
attempt to maintain regional stability.
    In 2011, the Egyptian uprising caused the world to stop and watch 
as Egyptians revolted and caused the 30-year regime of Hosni Mubarak to 
end. In June 2012, there was hope for Egypt as it held a democratic 
election and elected Mohammed Morsi.
    However, during his presidency, Morsi brought the nation to the 
brink of collapse and was not a legitimate ruler in the eyes of the 
majority of Egyptians. In July 2013, the Egyptian military removed its 
democratically-elected President Morsi and replaced him with its own 
regime.
    Throughout the past months, there have been a series of deadly 
attacks in the region. Including a coordinated attack in Cairo last 
month. Additionally, freedom of the press remains stifled. Journalists 
have been detained.
    The Egyptian economy is extremely unstable and the people do not 
feel safe in their own communities. One group that has emerged as one 
of Egypt's biggest threats is al-Qaeda-inspired Ansar Beyt al Maqdis 
(ABM).
    ABM first emerged in 2011, amid a security vacuum caused by the 
fall of former President Hosani Mubrak. The group is based in the Sinai 
desert, next to the Israeli border. The group's operations expanded 
drastically after Mori was overthrown in July.
    Egypt is a country in turmoil and our relationship with the country 
demands that there be some significant oversight given to the aid that 
we are providing.
    This subcommittee also has the responsibility to examine what 
impact if any that ABM or any other terrorist organization operating in 
the Egypt has on the United States.
    It is imperative that we examine these threats and their relevance, 
if any, to the United States interests in Egypt. It is also imperative 
that we hear from both the Government and private sector in open forum 
about Egypt and al-Qaeda's presence in that region and I hope future 
hearings will have Government witnesses.

    Mr. King. Thank you, Ranking Member. As I said, he is 
really a courteous, cooperative guy, before you got here.
    Other Members of the committee, if they are not here today, 
are reminded that opening statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 11, 2014
    For the past 3 years, the world has watched and witnessed change in 
Egypt. Since the Egyptian uprising, the country has been overcome with 
protest, unrest, and rapid political change. On February 10, 2011, 
after 18 days of fierce protests, former Egyptian president Hosni 
Murbak stepped down, ending a 30-year regime. In June 2012, Egypt had 
an historic election. The people elected Mohammed Morsi by a majority 
vote. In July 2013, the Egyptian military ousted Morsi.
    In the months following the ousting of former President Morsi, the 
Obama administration suspended aid to Egypt while the State Department 
reviewed the military takeover and the new government's commitment to 
democracy during the transition. In addition to the United States 
cutting off funding to the government, there have been sophisticated 
attacks in Egypt. For example, in January 2014, coordinated attacks in 
Cairo killed 6 and injured 100.
    According to the Egyptian government, Egyptian forces have arrested 
over a thousand terrorists since its transition from the Morsi regime. 
Violent attacks in a country that has been in turmoil and that has 
several extremist groups that call Egypt home should be of concern. 
What is also of concern is the recent crackdown by the Egyptian 
government on journalists and academics who have not been able to 
freely do their jobs in Egypt. The White House has asked the Egyptian 
government to drop the charges of the journalists and academics that 
are being held.
    Last month, this Congress restored $1.5 billion in annual aid to 
Egypt. As an oversight body, this subcommittee is right in being 
concerned about the turmoil in Egypt and whether the fallout from this 
turmoil creates any direct threats to the United States or its 
interests abroad.
    It is also a Constitutional mandate for this Congress to ask 
questions about the United States military and diplomatic actions in 
Egypt. However, this subcommittee's hearing strategy is ineffective. 
Like many of the hearings this committee and subcommittee have held 
this Congress, no one from the intelligence community has been invited 
to inform the Members about the threat and if there is imminent risk to 
the United States.
    Nor is there anyone from the State Department here to testify and 
let the subcommittee know if the Egyptian government has successfully 
fulfilled the Congressional requirements to for the country to receive 
aid from the United States. While I look forward to the witness 
testimony today, I believe we are doing ourselves a disservice by not 
speaking with the appropriate administration officials in an open 
forum.

    Mr. King. We are pleased to have a distinguished panel of 
witnesses before us today on this important topic. Again, in 
the interest of time, I will limit my introduction of you, 
other--let me just emphasize and add how the Ranking Member and 
I are so privileged to have you--all of you here today and 
thank you for your contributions over the years.
    We will begin with Dr. Steven Cook, who is a senior fellow 
for Middle Eastern studies of the Council on Foreign Relations.
    Dr. Cook.

  STATEMENT OF STEVEN A. COOK, SENIOR FELLOW, MIDDLE EASTERN 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Cook. Thank you very much, Mr. Chairman. Thank you for 
the invitation to appear before you today to discuss the 
situation in Egypt.
    For today's hearings, I will address what is happening in 
Egypt--oh, I am sorry. Rarely do I need a microphone. I am a 
New Yorker like you, sir--what is likely to happen in Egypt, 
the situation in the Sinai Peninsula, the potential effect on 
American interests, and what the United States can do about it.
    A little more than 3 years ago today, I returned home after 
witnessing first-hand the exhilaration and hope of protesters 
in Tahrir Square.
    Unfortunately, over the course of the last 36 months, 
Egypt's political development has not lived up to those 
aspirations. On the third anniversary of Hosni Mubarak's 
ignominious fall, political disappointment, enormous economic 
challenges, and an insurgency are Egypt's present and future 
reality.
    The intention of those currently in power is to reengineer 
a political system in a way that makes it impossible for 
January 25, 2011, to happen again. The reconstituted political 
order is likely to be more brutal and more adept than its 
predecessors. Still, Egypt's leaders face obstacles to 
achieving those goals.
    If there is one thing--one revolutionary thing that has 
happened in Egypt over the last 3 years, it is an emergence of 
large groups of people who are determined to continue to make 
demands on the Government through street politics and protests.
    Second, based on experiences of the last 3 years, Egyptian 
politics can change very, very quickly. The political consensus 
around now Field Marshal Abdel-Fattah El-Sisi may be more 
apparent than real. That means that Egyptian politics are 
likely to be more contested going forward.
    The authorities' only answers to this political ferment are 
authoritarian tools, notably, coercion and violence. This 
brings me to the situation in the Sinai Peninsula. The security 
problems there have become deeply, deeply worrisome.
    It is important to note that it is the scale of violence 
that is new, not the problem of terrorism nor its cause. Egypt 
is, in many ways, a crucible of transnational jihad, as you 
noted in your opening remarks, and has produced a long list of 
notorious terrorists.
    For at least a decade before the January 25 uprising, 
Israeli and American officials raised concerns to their 
Egyptian counterparts over the drug trade, the flow of weapons, 
human trafficking, and the presence of various extremist groups 
in the Sinai.
    There is no evidence that President Mubarak took American 
Israeli concerns seriously. Even if he had, there are important 
political and structural impediments that would have prevented 
him from taking any--any effective action.
    After the January 25 uprising, the Ministry of Interior was 
badly battered and the Ministry of Defense was consumed with 
running the country. This almost immediately resulted in the 
deterioration of security in Northern Sinai.
    Attacks on police stations, bombings of the Trans-Arab and 
El Arish-Ashkelon pipelines, kidnapping of security personnel, 
efforts to infiltrate Israel, and brazen attacks on state 
facilities in the region's capital became frequent. This is a 
conflict that the Egyptian military is not well-equipped to 
fight.
    Over the last 3 decades, with American help, Egypt's senior 
command had focused on developing a heavily-mechanized force 
complemented with air power. In addition, the officers have 
been resistant to American advice on how best to prepare for 
21st Century threats.
    Since the July 3, 2013, coup d'etat, there have been many, 
hundreds, of terrorist attacks in the Sinai and a series of 
attacks in major population centers in the Nile Valley, 
including Ismailiyya, Mansoura, the Sharqiya governate, and 
Cairo.
    Ansar Bayt Al Maqdis is the primary al-Qaeda-affiliated 
group that has taken responsibility for those attacks, but 
other groups, including previously unknown--Ajnad Misr, 
Soldiers of Egypt, Jund al Islam, Soldiers of Islam--have also 
targeted the Egyptian state. Most ominously, in late July and 
again in early September, an extremist organization called al-
Furqan fired on ships in the Suez Canal.
    The Sinai is not yet an area of foreign jihadi activity. 
Like the low-level insurgency of the 1990s, however, the 
evidence suggests that violence in the Sinai is largely an 
Egyptian affair.
    It may yet attract foreign jihadists, but thus far, the 
Sinai has enticed Egyptian nationals who have been fighting in 
Syria and Iraq to return home in order to wage war against what 
they believe to be an illegitimate government. Ayman Zawahiri, 
Egyptian leader of al-Qaeda, has offered his support to Ansar 
Bayt Al Maqdis and has encouraged Egyptians to take up arms 
against the state.
    The best thing that the United States can do at this time 
is not cut aid from Egypt, but to support the Egyptians in this 
fight against al-Qaeda. The suspension of aid has not made 
Egypt more democratic and has not made Egypt less unstable.
    The United States has a role to play in standing shoulder-
to-shoulder with the Egyptians in this fight against terrorism 
going forward. Thank you.
    [The prepared statement of Mr. Cook follows:]
                  Prepared Statement of Steven A. Cook
                           February 14, 2014
    Mr. Chairman and Members of the subcommittee: Thank you for this 
invitation to appear before you to discuss the situation in Egypt and 
how it affects U.S. National interests. For today's hearing, I will 
address broadly what is happening in Egypt, what is likely to happen in 
that country, the situation in the Sinai Peninsula, its potential to 
affect American National security interests, and what the United States 
can do to help the Egyptians meet the challenges they confront.
    A little more than 3 years ago today, I returned home after 
witnessing first-hand the exhilaration and hope of protesters in Tahrir 
Square. Contrary to much of the commentary about that moment, economic 
grievances were not the primary factor that brought Egyptians into the 
streets. Rather, the crowd of tens of thousands that grew to hundreds 
of thousands 2 weeks later was demanding freedom, justice, dignity, and 
national empowerment.
    Unfortunately, over the course of the last 36 months, Egypt's 
political development has not lived up to the aspirations of those 
heady 18 days in Tahrir Square. Instead, what we are seeing in Egypt is 
the reconstitution of a version of the old political order. The 
intention of those currently in power is to re-engineer the political 
system in a way that makes it harder for events like the January 25 
uprising to happen again. This reconstituted order is likely to be both 
more brutal and more adept than its predecessor. Yet Egypt's leaders 
face significant obstacles to achieving their goal of stabilizing the 
political arena. The events of January-February 2011 do not constitute 
a revolution, but if there has been one revolutionary development in 
Egypt over the last 3 years, it is the emergence of large groups of 
people who are determined to continue making demands on the government 
through street politics and protest. Much attention has been paid to 
the Muslim Brotherhood in this regard, but opposition to the new order 
exists among the non-Muslim Brotherhood, non-religious end of the 
political spectrum. It is important to point out that although the 
January referendum on the new constitution earned overwhelming support, 
only 38.6 percent of eligible voters participated.
    In addition, based on the experiences of the last 3 years, Egyptian 
politics can change very quickly. The Muslim Brotherhood's Freedom and 
Justice Party won a plurality of votes in the parliamentary elections 
in 2011-2012, but now many of its members are in jail or on the run. 
Egyptians applauded when Field Marshal Hussein Tantawi, the former head 
of the Supreme Council of the Armed Forces, ceded power to Mohammed 
Morsi after the June 2012 presidential elections, but a year later 
millions mobilized against Morsi, culminating in the coup d'etat of 
July 3, 2013. The political consensus since the military's intervention 
and the wide-spread popularity of Field Marshal Abdel Fattah al Sisi 
may be more apparent than real. This means that Egyptian politics will 
continue to be contested. The authorities' only answers to this 
political ferment are authoritarian tools--notably, coercion and 
violence. On the third anniversary of Hosni Mubarak's ignominious fall, 
political disappointment, enormous economic challenges, and an 
insurgency are Egypt's present and future reality.
    This brings me to the situation in the Sinai Peninsula. The 
security problems there have become deeply worrisome. It is important 
to note that it is the scale of violence that is new, not the problem 
of terrorism nor its cause. Egypt is in many ways a crucible of 
transnational jihad and has produced a long list of notorious 
terrorists. For at least a decade before the January 2011 uprising, 
Israeli and American officials raised concerns to their Egyptian 
counterparts over the drug trade, the flow of weapons, human 
trafficking, and the presence of various extremist groups in the Sinai. 
There is no evidence that then-president Mubarak took American and 
Israeli disquiet seriously, but even if he had, there were important 
political and structural impediments that would have prevented him from 
taking any effective action.
    First, the leadership in Cairo was not inclined politically to 
address to grievances of the population of northern Sinai, whether they 
be related to the lack of economic opportunity and development or to 
the poor treatment of the population at the hands of the Ministry of 
Interior. Although the Sinai is critical to a set of national myths 
related to past conflicts with Israel and national redemption, the area 
has not been incorporated into the political and economic life of the 
country. Given this neglect and the cultural differences between the 
largely Bedouin population of the Sinai and other parts of the country, 
residents of the Sinai do not feel Egyptian. To be fair, this situation 
is not necessarily unique to the Sinai. The same can be said of 
residents who live in the Nile Valley who also feel disconnected from 
the far-flung capital and its leaders who care little about 
developments outside the major population centers.
    Second, Egyptian-Israeli security coordination was not as robust in 
the late 1990s and 2000s as it is now. During the mid-2000s, for 
example, there was considerable mistrust between the two security 
establishments in addition to thinly-veiled Egyptian anger over the 
efforts of Israel and its U.S.-based supporters to draw attention to 
Cairo's lackluster approach to the problem of underground smuggling 
from the Egyptian frontier to the Gaza Strip.
    Third, and most importantly, the primary state organizations that 
were (and remain) responsible for the Sinai--the Ministry of Defense, 
the Ministry of Interior, and the General Intelligence Service (GIS)--
have maintained different views on how to deal with problems there, 
have distinct missions, and are in competition with each other. Due to 
restrictions built into the Egypt-Israel peace treaty, the armed forces 
were only permitted in certain locations in the Sinai and only with 
certain pre-determined types of weapons. As a result, stability in the 
Sinai was largely left to the Ministry of Interior, which, as alluded 
to above, pursued its police functions with zeal and little regard for 
due process or human rights. For its part, the GIS was less interested 
in the quiescence of the population than it was in running intelligence 
operations in the Sinai. The inevitable result was the development of 
an environment conducive to crime, extremism, and violence.
    After the uprising, the Ministry of Interior was badly battered and 
the Ministry of Defense was consumed with running the country. This 
almost immediately resulted in the deterioration of the security 
situation in northern Sinai. Attacks on police stations, bombings of 
the Trans-Arab and the al Arish-Ashkelon pipelines, kidnapping of 
security personnel, efforts to infiltrate Israel, and brazen attacks on 
state facilities in the region's capital al Arish all became frequent. 
Military operations during the summer of 2011 and 2012 did little to 
arrest this instability and violence. It is not accurate to suggest, as 
many in the media have, that the Sinai Peninsula is ``lawless.'' There 
are informal legal institutions in the Sinai: Sharia courts are now 
taking the place of the tribal `Urf court system, which the government 
under Mubarak was widely believed to have infiltrated. The spread of 
Sharia courts has become a way to propagate and institutionalize 
extremist ideologies and worldviews.
    As the Egyptians celebrate today the third anniversary of Hosni 
Mubarak's fall, the insurgency that they are now confronting in the 
Sinai Peninsula is only one of many challenges, but perhaps the most 
serious one, that they face in the struggle to build a new and more 
just society. This is a conflict that the military is not well-equipped 
to fight. Over the last 3 decades, Egypt's senior command have focused 
on a heavily-mechanized force complemented by air power. The officers 
have also been resistant to American advice about how best to prepare 
for 21st Century threats. Since the July 3, 2013 coup d'etat, there 
have been at least 22 terrorist attacks in the Sinai and a series of 
attacks in major population centers in the Nile Valley, including 
Ismailiyya, Mansoura, the Sharqiya governorate, and Cairo. A group 
called Ansar Bayt at Maqdis (Supporters of Jerusalem) have taken 
responsibility for most of the attacks, but other groups including the 
previously-unknown Ajnad Misr (Soldiers of Egypt) and Jund al Islam 
(Soldiers of Islam) have also targeted the Egyptian state and security 
forces. Most ominously, in late July and again in early September, an 
extremist organization called al-Furqan Brigade fired on cargo ships in 
the Suez Canal with rocket-propelled grenades, though no damage was 
reported.
    Observers have speculated that the Sinai Peninsula will or already 
has become a haven for foreign fighters intent on carrying out jihad. 
Like the low-level insurgency of the 1990s, however, the evidence 
suggests that the violence in the Sinai Peninsula is largely an 
Egyptian affair. The Sinai may yet attract foreign jihadis, but thus 
far the Sinai has enticed Egyptians nationals who had been fighting in 
Syria and Iraq to return home in order to wage war against what they 
believe to be an illegitimate government. Ayman Zawahiri, the Egyptian 
leader of al-Qaeda, has offered his support to Ansar Bayt al Maqdis and 
has encouraged Egyptians to take up arms against the state. There is 
currently a debate in Washington about Zawahiri and the extent of his 
control over al-Qaeda and its affiliates, but it seems clear that he 
maintain influence among Egyptian jihadists.
    Mr. Chairman, this brief overview depicts a profoundly worrying 
situation of political uncertainty, economic deterioration, and 
extremist violence. This instability poses a threat to American 
National security interests including navigation of the Suez Canal, 
providing logistical support to U.S. forces in the Persian Gulf, 
overflight rights, and the preservation of Egypt-Israel peace. Since 
Hosni Mubarak's departure, the analytic community has been debating how 
the United States can best help Egypt. There have been many good ideas. 
Much of this work has, however, focused on promoting democratic 
development in Egypt. This is a laudable goal--one that I share--but 
Egypt's current trajectory suggests an unstable and authoritarian 
future.
    In an environment where the Egyptian leadership and its supporters 
have characterized domestic politics as an existential struggle, there 
is little that the United States can do to help secure a democratic 
outcome. Washington should speak out forcefully and clearly against, 
for example, human rights violations, attacks on press freedoms, and 
policies that contradict the rule of law, but policymakers must 
understand that this is unlikely to have a decisive effect on the 
quality of Egyptian politics. Some observers have advocated suspending, 
delaying, or outright cutting U.S. military assistance to punish the 
military for the July 3 coup and to compel the officers to put Egypt on 
a democratic path. It is hard to understand how such a policy would 
advance democratic change or help improve Egypt's security situation. 
The Obama administration has already withheld important weapons systems 
from the Egyptians, including F-16s and Apache helicopters in response 
to the military's intervention, but this has not had a salutatory 
effect on Egyptian politics. Critics also argue that U.S. support for 
the military will further destabilize Egypt, reasoning that the 
officers' harsh crackdown is contributing to polarization and violence. 
This ``repression-radicalization dynamic'' is real, but whether the 
United States provides assistance or not, the military and the Ministry 
of Interior seem likely to continue to try to establish political 
control through coercion and violence. Withdrawing American support 
will not make Egypt less unstable.
    Against the backdrop of this difficult debate, the United States 
has security interests in Egypt that virtually all observers agree 
remain important in the short run. The Egyptians have come to terms 
with the fact that they are likely to be battling extremists in the 
Sinai Peninsula for the foreseeable future. The Ministry of Defense is 
not always amenable to American advice because they fear that the 
United States wants to transform the military into a gendarmerie. There 
is no basis for this concern, but the Egyptians must break out of their 
outdated conception of security and rethink their doctrine to respond 
to the very real threats before them. This is where the United States 
can be most helpful, but to be successful, American policymakers will 
need to reassure Egyptian officers that Washington stands with them in 
the fight against terrorism and extremism. Specifically, the 
administration and the Congress should give the Egyptian military the 
tools and technology it needs to counter extremist violence; release 
suspended weapons systems, especially the Apache helicopters; establish 
a standing group of American and Egyptian officers to coordinate 
assistance coherently; and develop a trilateral American-Egyptian-
Israeli security/intelligence/counter-terrorism mechanism that 
facilitates the flow of information among the security establishments 
of all three countries.
    Mr. Chairman, my comments no doubt give rise to many questions and 
concerns and I look forward to discussing them with Members of the 
subcommittee. I am grateful to you for inviting me today and for 
holding this hearing on the difficult situation in Egypt.

    Mr. King. Thank you, Dr. Cook.
    I should point out on the issue of--on the case of full 
transparency that Dr. Cook is a former constituent and his 
mother remains a constituent.
    So I hope you report back to your mother and tell her I was 
okay.
    Mr. Cook. I am hoping she will report back to you that I 
was okay, sir. Thank you.
    Mr. King. Thank you very much.
    Our next witness is Tom Joscelyn, who has actually been a 
witness before this committee and subcommittee a number of 
times. He is a senior fellow with the Foundation for the 
Defense of Democracies and has been a strong fighter in the--
and analyst in the war against terrorism.
    Mr. Joscelyn, it is good to have you back again. Thank you.

STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR THE 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Thank you, Congressman King and Congressman 
Higgins, for having me back again to testify before you about 
al-Qaeda and Egypt.
    Now, real quick, the way I look at the threat in Egypt is 
that, after the revolution against Mubarak, what we witnessed 
were a number of al-Qaeda actors sort-of return to Egypt or got 
established in Egypt. This includes very senior al-Qaeda 
members who returned to Egypt or were released from prison.
    Some of these al-Qaeda leaders actually returned from Iran, 
where they were harbored for years. Some of these leaders were 
actually referenced in Osama bin Laden's files as top al-Qaeda 
leaders that he wanted to protect and keep alive.
    So that, I think, is a very underreported dynamic of what 
is going on in Egypt, that there are very senior al-Qaeda 
leaders who are, as far as I can tell, at large today.
    I will just add this. We saw the threat of some of these 
senior al-Qaeda leaders actually on September 11, 2012. If you 
go back to the video footage of the assault on the U.S. embassy 
in Cairo, four--I have identified at least four very senior al-
Qaeda jihadists who were involved in instigating those protests 
and shaping that event into a pro-al-Qaeda event, which led to 
the American flag being torn down and the al-Qaeda flag being 
raised over our embassy.
    The second point that I would like to make is that what is 
happening in the Sinai right now is not necessarily confined to 
the Sinai, that it is actually part of an international network 
that is tied to other al-Qaeda actors both in Libya, Syria, and 
elsewhere. So it is not something that is just sort-of confined 
into what--in the Sinai Peninsula today.
    We saw the threat that is emanating from the Sinai against 
U.S. interests already, I would argue, and one of the ways we 
saw that is that this group, Muhammad Jamal Network, which 
answered to Ayman Zawahiri, actually gauged some of the 
fighters to participate in the attack in Benghazi on September 
11, 2012. There are--the Muhammad Jamal Network actually has 
camps in the Sinai--established camps in the Sinai, established 
camps in Eastern Libya and elsewhere.
    Another threat that I think is underreported to American 
interests actually occurred last year, which is that the U.S. 
embassy in Cairo and other Western interests were actually--
there was a plot to attack them by al-Qaeda terrorists, 
according to the Interior of Ministry in Egypt.
    Again, the last time I testified before you gentlemen, we 
talked about al-Qaeda in Iran. What is interesting about this 
is that the same network that we talked about the last time I 
testified that gave us that plot to blow up a train from New 
York City to Canada was tied to this plot and to Egyptian 
actors that were targeting the U.S. embassy in Cairo.
    So I think it is important to show the interconnectivity of 
all this and how the Sinai and these actors are not just sort 
of operating in isolation.
    The third and final point involves what happens to the 
actors in the Sinai and Ansar Jerusalem, the main actor that 
has claimed responsibility for a lot of attacks.
    Very carefully, if you go through the group's history, if 
you go through its operations, if you go through its 
statements, if you go through what senior al-Qaeda leaders have 
said about the group, it is, I would say, at a minimum, a pro-
al-Qaeda or al-Qaeda-inspired type-of group.
    I suspect that it is actually already operating as part of 
the al-Qaeda network. Why I say that is because, when you look 
at the specific operators involved, you look at the very 
granular details, you find all this connectivity to al-Qaeda's 
international network.
    In September of last year, a suicide bomber, a former major 
in the Egyptian Army, blew himself up trying to attack a top 
Egyptian official and, when you go through his biography and 
the details of what we know about him or what the Egyptians say 
about him, I count at least five or six major points of 
connectivity to the al-Qaeda international network. This shows 
you that this group is actually operating as part of what al-
Qaeda wants, basically, in Egypt.
    When you go through Ayman Zawahiri and senior al-Qaeda 
leaders' statements about the group, it is pretty eerie to see 
that they continually approve of the group's operations, they 
continuously single out bombings on pipelines, rocket attacks, 
any--what have you, to say that this is basically what they 
want and what Muslims should be doing in Egypt, what jihad 
should be doing in Egypt, to carry the fight forward.
    So when you look at it from that perspective, I think that, 
as the story of Ansar Jerusalem has evolved over time, its ties 
to al-Qaeda's international network are getting stronger. The 
evidence is those ties are getting stronger, not weaker. Okay?
    So this isn't necessarily--it could be just an al-Qaeda-
inspired group that was an upstart that is trying to gain the--
basically, support of the al-Qaeda network. I think that it may 
be something other than that. I think it may be sort-of a group 
that has basically been implanted by al-Qaeda actors to grow 
and operate.
    On that last point, I will say this, too. Congressman King, 
you mentioned al-Qaeda in the Arabian Peninsula. As you can see 
in my written testimony, I think there is strong evidence that 
al-Qaeda in the Arabian Peninsula is actually operating in the 
Sinai, that, in fact, they have ties to terrorists in the 
Sinai. I gave you a number of reports in my written testimony 
along those lines.
    That is obviously important for the reasons you pointed 
out, which this is a group that has sort-of carried the banner 
of the fight against the United States and has launched 
numerous attacks against the United States. This may be 
something that they see the Sinai as a crossroads for sort-of 
further operations in the future.
    Thank you.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                           February 11, 2014
    Chairman King, Ranking Member Higgins, Members of the committee, 
thank you for inviting me here today to discuss al-Qaeda's presence in 
Egypt. The uprisings throughout the Muslim world that began in late 
2010 and early 2011 brought hope to millions of people. Al-Qaeda did 
not instigate these revolts, but in the years since the group has 
exploited the security vacuums created in their wake.
    Al-Qaeda's theory of the revolution in Egypt, and the subsequent 
overthrow of Mohamed Morsi's Islamist regime, is predicated on its 
deeply anti-American and anti-Semitic worldview. Al-Qaeda's senior 
leaders portrayed Mubarak's fall as a defeat for the United States and 
its interests in the region. For instance, al-Qaeda head Ayman Zawahiri 
portrayed the toppling of dictators in Egypt and Tunisia as comparable 
to America's military losses and the September 11, 2001, terrorist 
attacks. America ``was defeated in Tunisia and lost its agent there,'' 
Zawahiri said in an October 2011 recording, and ``it was defeated in 
Egypt and lost its biggest agent there.''\1\
---------------------------------------------------------------------------
    \1\ SITE Intelligence Group, ``Zawahiri Praises Libyan Rebels, 
Eilat Attackers; Urges Algerians to Revolt,'' October 11, 2011.
---------------------------------------------------------------------------
    Even though al-Qaeda has long disagreed with the Muslim 
Brotherhood's approach to politics, sometimes vehemently so, the group 
did not call for jihad against Morsi or his government. Instead, most 
of post-Mubarak Egypt became a land for proselytization. In ``Egypt and 
Tunisia, the opportunities have opened up for preaching [but] only 
Allah knows how long they will last,'' Zawahiri said in an August 2011 
message. ``Therefore,'' Zawahiri continued, ``the people of Islam and 
jihad should benefit from them and take advantage of them to report the 
clear truth and make the Ummah come together around the primary issues 
that no Muslim can dispute.''\2\ Accordingly, from early 2011 through 
the middle of 2013, Zawahiri's henchmen and allied jihadists set up 
organizations to spread al-Qaeda's ideology. They preached in Tahrir 
Square, appeared on national television, and openly operated in a 
country where they had once been hunted and harassed by security 
services.
---------------------------------------------------------------------------
    \2\ SITE Intelligence Group, ``Zawahiri Rallies for Jihad; Calls 
for Intellectual Debate, Advocacy,'' August 15, 2011.
---------------------------------------------------------------------------
    In some respects, however, the Sinai was different. The jihadists 
saw it as a new front for confronting Israel and a base for their 
operations. Various al-Qaeda-linked or inspired groups grew. When 
Egyptian security forces conducted counterterrorism raids, they became 
viable terrorist targets. Indeed, al-Qaeda's leaders repeatedly 
condemned Egypt's military even prior to Morsi's ouster. When Morsi was 
deposed in early July 2013, the landscape changed once again. No longer 
was the Islamist regime, which al-Qaeda saw as doomed to fail, in 
power. Al-Qaeda has consistently portrayed the Egyptian military as a 
servant of an imaginary Zionist-Crusader conspiracy, making the 
government a legitimate target for jihad.
    Egypt continues to pose of a variety of counter-terrorism 
challenges and threats to American interests. I address several of 
these areas of concern in my testimony today.
  <bullet> Al-Qaeda likely has ``core'' leaders inside Egypt today.--
        During and after the 2011 uprisings, senior jihadists allied 
        with al-Qaeda were freed. Others returned from abroad, 
        including from Iran, which offered Egyptian jihadist leaders a 
        form of safe haven for years. Not all of these jihadists 
        returned to terrorism, but some influential jihadists did. The 
        September 11, 2012, protest in front of the U.S. Embassy in 
        Cairo, which turned into an all-out assault, was instigated by 
        ``old school'' jihadists who are part of al-Qaeda's network and 
        were freed after Mubarak's fall.
    After President Mohamed Morsi's regime was overthrown, the military 
        and security forces re-arrested a number of senior jihadist 
        figures. However, some likely remain active and may hold 
        leadership roles in new al-Qaeda-allied terrorist 
        organizations.
  <bullet> The Muhammad Jamal Network (MJN), which was established in 
        2011, is an international threat and part of al-Qaeda's 
        network.--One of the ``old school'' Egyptian Islamic Jihad 
        (EIJ) jihadists released from prison in 2011 is Muhammad Jamal, 
        a long-time subordinate to Ayman Zawahiri. Despite Jamal's re-
        imprisonment in late 2012, the MJN remains active today in the 
        Sinai, mainland Egypt and elsewhere. The MJN clearly operates 
        as part of al-Qaeda's international network and has ties to 
        terrorists in Europe. Some of its members participated in the 
        September 11, 2012, terrorist attack in Benghazi, Libya. 
        Egyptian authorities have alleged that the MJN was connected to 
        an al-Qaeda plot against Western embassies and other interests 
        in Cairo in 2013.\3\
---------------------------------------------------------------------------
    \3\ Thomas Joscelyn, ``Egyptian interior minister: Al Qaeda cell 
plotted suicide attack against Western embassy,'' The Long War Journal, 
May 11, 2013. (http://www.longwarjournal.org/archives/2013/05/
egyptian_interior_mi.php)
---------------------------------------------------------------------------
  <bullet> There is strong evidence indicating that al-Qaeda in the 
        Arabian Peninsula (AQAP), which is headquartered in Yemen, is 
        operating in the Sinai.--This is an important development 
        because AQAP has repeatedly attempted to attack the U.S. 
        homeland since 2009 and is increasingly managing al-Qaeda's 
        assets far from its home base of operations. The head of AQAP, 
        Nasir al Wuhayshi, is the general manager of al-Qaeda's global 
        network.
  <bullet> The Sinai Peninsula has become home to multiple al-Qaeda 
        actors, as well as al-Qaeda-inspired groups.--Osama bin Laden's 
        former doctor is reportedly a senior al-Qaeda leader in the 
        Sinai today. Several groups proclaiming their allegiance to al-
        Qaeda have emerged in the Sinai since 2011.
  <bullet> Ansar Jerusalem (Ansar Bayt al-Maqdis), the most prolific 
        Sinai-based jihadist organization, is pursuing al-Qaeda's 
        agenda.--Al-Qaeda's leader, Ayman Zawahiri, has repeatedly 
        praised the group's attacks. Ansar Jerusalem shares al-Qaeda's 
        ideology, employs al-Qaeda's tactics, and routinely refers to 
        and praises al-Qaeda's leaders in its statements. There is much 
        we do not know about Ansar Jerusalem's operations, but a 
        growing body of evidence suggests it is tied to al-Qaeda's 
        international network.
  <bullet> The Muslim Brotherhood, or at least elements of the 
        organization, may have already turned to violence.--The 
        overthrow of Mohamed Morsi's regime was an ``I told you so'' 
        moment for al-Qaeda. The organization's senior ideologues have 
        long argued that an Islamist regime would not be allowed to 
        rule Egypt. Brotherhood members are certainly disillusioned 
        following Morsi's ouster, and al-Qaeda may, therefore, be more 
        appealing to them. We know that groups such as Ansar Jerusalem 
        are already poaching from the Brotherhood's ranks. Egyptian 
        officials have leveled a number of allegations against the 
        Brotherhood, saying that it is deeply involved in supporting 
        terrorist activities. These allegations may be false and 
        designed to further delegitimize the Brotherhood at home and 
        abroad. However, some of the allegations are specific and can, 
        therefore, be either verified or rejected. During the 
        Brotherhood's brief reign, Morsi and others did cooperate with 
        jihadists in some ways. This entire subject is murky and 
        requires more analysis.
  <bullet> Finally, it is worth stressing that al-Qaeda views the Sinai 
        as a base of operations for fighting an imaginary ``Zionist-
        Crusader'' conspiracy.--That is, al-Qaeda sees the Sinai as a 
        launching pad for attacks against both American and Israeli 
        interests. Today, Israel faces more of a challenge from 
        jihadists allied with al-Qaeda than ever before. This threat 
        comes not just from the Sinai, but also from other countries, 
        including Syria.
    Below, I have divided the rest of my written testimony into three 
sections. In the first section, I outline how key al-Qaeda leaders 
(including ``core'' members) became active in Egypt following the 
revolution. Some of them are still active to this day. In the second 
section, I give a brief overview of the leading al-Qaeda-linked 
organizations in the Sinai. In the third and final section, I look at 
Ansar Jerusalem more closely, demonstrating that the organization is 
clearly pursuing al-Qaeda's agenda.
        post-revolution: al-qaeda leaders become active in egypt
    For decades, the main terrorist challenge to the Egyptian 
government came from the Egyptian Islamic Jihad (EIJ) and Gamaa 
Islamiyya (IG), two groups that were allied with al-Qaeda and 
responsible for high-profile attacks on both Egyptian leaders and 
civilians. The EIJ was headed by Ayman Zawahiri and merged with Osama 
bin Laden's venture prior to the September 11, 2001, terrorist attacks. 
While some IG leaders renounced violence from behind bars in Egypt, 
others did not and remained loyal to al-Qaeda. Long-time IG spiritual 
leader Sheikh Omar Abdel Rahman, a.k.a. ``the Blind Sheikh,'' remains a 
popular figure in jihadist circles 2 decades after his imprisonment in 
the United States.
    Under Hosni Mubarak's regime, many EIJ and IG leaders were 
imprisoned. Some avoided confinement by staying abroad, either in 
Afghanistan-Pakistan, Iran, or elsewhere. After Mubarak's fall, dozens 
of EIJ and IG leaders were freed from prison. Still others returned to 
their home country, where they were suddenly acquitted of long-standing 
terrorism charges.
    One such key al-Qaeda leader is Mohammad Islambouli, the brother of 
Anwar Sadat's assassin. Islambouli lived in Iran for years after 9/11. 
While living in Iran, he was a part of an IG contingent that formally 
merged with al-Qaeda. In fact, Islambouli's ties to al-Qaeda leadership 
go back decades. His importance can be seen in the limited number of 
documents released from Osama bin Laden's compound in Abbottabad, 
Pakistan. In one document, dated October 20, 2010, bin Laden stresses 
the importance of protecting Islambouli, who had apparently evacuated 
northern Pakistan (after leaving Iran) for Kunar, Afghanistan. ``He 
should be informed of the nature of work and he should be consulted on 
things that are being discussed,'' bin Laden writes, in reference to 
some on-going projects.\4\ An earlier document, dated March 28, 2007, 
is addressed to an individual known as ``Adnan Hafiz Sultan,'' who is 
also referred to as the ``maternal uncle.''\5\ The latter phrase 
(``maternal uncle'') is al-Qaeda's coded reference for Islambouli.\6\ 
If this letter is addressed to Islambouli, and it certainly appears 
that it is, then its contents show how Islambouli is a part of al-
Qaeda's senior leadership and he has been involved in managing the 
group's operations in Iraq and elsewhere.
---------------------------------------------------------------------------
    \4\ SOCOM-2012-0000015. Islambouli is referred to as Muhammad 
Shawqi Abu-Ja'far in the document.
    \5\ SOCOM-2012-0000011.
    \6\ Bill Roggio, Daveed Gartenstein-Ross, and Tony Badran, 
``Intercepted Letters from al-Qaeda Leaders Shed Light on State of 
Network in Iraq,'' The Long War Journal, September 12, 2008. (http://
www.defenddemocracy.org/media-hit/intercepted-letters-from-al-qaeda-
leaders-shed-light-on-state-of-network-in/).
---------------------------------------------------------------------------
    After returning to Egypt, Islambouli was reportedly freed by an 
Egyptian military court in 2012 despite having been convicted of 
terrorism charges in absentia decades earlier.\7\ It is not clear where 
Islambouli is today, or if he has been re-arrested. But Islambouli's 
re-emergence demonstrates how an Egyptian al-Qaeda leader, important 
enough for bin Laden to protect, suddenly found his home country to be 
hospitable once again. And Islambouli was not the only IG member turned 
senior al-Qaeda leader to return from abroad in 2011 and 2012.
---------------------------------------------------------------------------
    \7\ ``Egypt military court releases the brother of Sadat's 
assassin,'' Ahram Online, February 27, 2012. (http://
english.ahram.org.eg/NewsContent/1/64/35491/Egypt/Politics-/Egypt-
military-court-releases-the-brother-of-Sadat.aspx).
---------------------------------------------------------------------------
    In addition, a contingent of EIJ leaders loyal to al-Qaeda's leader 
became especially active inside Egypt after their release from prison. 
They were led by Mohammed Zawahiri, the younger brother of Ayman 
Zawahiri. Until he was re-arrested in 2013, Mohammed Zawahiri used the 
permissive environment following the fall of Mubarak to proselytize, 
often under the banner of ``Ansar al Sharia Egypt.'' This group was 
established by one of his former EIJ comrades, Ahmed Ashush. In 
interviews, Ashush proclaimed his allegiance to al-Qaeda, saying that 
he was ``honored to be an extension of al-Qaeda.''\8\ Although Mohammed 
Zawahiri spent much of his trying to win new converts for al-Qaeda's 
ideology, he likely returned to terrorist operations and was in contact 
with his brother as well.\9\
---------------------------------------------------------------------------
    \8\ Thomas Joscelyn, ``Ansar al Sharia Egypt founder `honored to be 
an extension of al Qaeda','' The Long War Journal, November 27, 2012. 
(http://www.longwarjournal.org/archives/2012/11/
ansar_al_sharia_egyp.php) For additional articles concerning Ansar al 
Sharia Egypt's ties to al-Qaeda-linked terrorists see: http://
www.longwarjournal.org/tags/Ansar%20al%- 20Sharia%20Egypt/common/.
    \9\ For example, see: Siobhan Gorman and Matt Bradley, ``Militant 
Link to Libya Attack,'' The Wall Street Journal, October 1, 2012. 
(http://online.wsj.com/news/articles/
SB10000872396390444549204578020373444418316) Some of Zawahiri's 
recruits went on to carry out suicide operations. See: Thomas Joscelyn, 
``Follower of Mohammed al Zawahiri dies in attack in Mali,'' The Long 
War Journal, May 10, 2013. (http://www.longwarjournal.org/archives/
2013/05/follower_of_mohammed.php)
---------------------------------------------------------------------------
    Mohammed Zawahiri was one of the chief instigators of the September 
11, 2012, protest in front of the U.S. Embassy in Cairo. The protest 
turned into an all-out assault on the compound, with the stars and 
stripes being ripped down and replaced by al-Qaeda'a black banner. The 
protest-turned-assault was a pro-al-Qaeda event from the first, with 
protesters openly praising Osama bin Laden and al-Qaeda. I have 
identified at least three other senior al-Qaeda-linked jihadists who 
helped spark the protest: Tawfiq Al `Afani, `Adel Shehato, and Rifai 
Ahmed Taha Musa.\10\ Al `Afani and Shehato are long-time EIJ ideologues 
and leaders. Shehato has since been re-arrested and charged with 
leading the so-called Nasr City Cell, which had multiple ties to al-
Qaeda.\11\
---------------------------------------------------------------------------
    \10\ Thomas Joscelyn, ``Al Qaeda-linked jihadists helped incite 9/
11 Cairo protest,'' The Long War Journal, October 26, 2012. (http://
www.longwarjournal.org/archives/2012/10/al_qaeda-linked_jiha.php)
    \11\ See: Thomas Joscelyn, ``Egypt arrests pro-al Qaeda jihadist 
tied to Benghazi suspect,'' The Long War Journal, November 2, 2012. 
(http://www.longwarjournal.org/archives/2012/11/
egyptian_islamic_jih.php) and Thomas Joscelyn, ``More al-Qaeda links to 
Cairo terror cell reportedly found,'' The Long War Journal, November 9, 
2012.
---------------------------------------------------------------------------
    Rifai Ahmed Taha Musa once led the IG and was a close confidante of 
the Blind Sheikh. He was very close to Osama bin Laden and Ayman 
Zawahiri. He even signed al-Qaeda's 1998 fatwa declaring the formation 
of a ``World Islamic Front for Confronting the Jews and 
Crusaders.''\12\ The CIA considered Taha Musa to be such an important 
terrorist that he was tracked down in Syria, where he was detained and 
deported to Egypt in late 2001.\13\
---------------------------------------------------------------------------
    \12\ Taha Musa would later claim that his name was mistakenly 
included on the fatwa.
    \13\ For an overview of Taha Musa's al-Qaeda role, see: Thomas 
Joscelyn, ``Al Qaeda-Linked Jihadists Incited Cairo Protest,'' The 
Weekly Standard, October 26, 2012. (http://www.weeklystandard.com/
blogs/al-qaeda-linked-jihadists-incited-cairo-protest_657859.html)
---------------------------------------------------------------------------
    Dozens of other senior al-Qaeda-linked jihadists either returned to 
Egypt or were freed from prison following the revolution. This raises 
several concerns going forward.
    First, these jihadists were able to build up their operations with 
only occasional interference from security forces for approximately 2 
years. They likely established terrorist cells and played a role in 
establishing some of the groups now based in the Sinai.
    Second, while some of these leaders have been re-imprisoned, there 
are unconfirmed reports that top jihadists such as Mohammed Zawahiri 
and Muhammad Jamal continue to communicate with the outside world from 
prison. Others remain free.
    Third, al-Qaeda's senior leadership is filled with Egyptians 
(including Saif al Adel, an al-Qaeda leader still wanted for his role 
in the 1998 U.S. Embassy bombings), who know their home country well 
and have thick roots in the jihadist scene there. This gives al-Qaeda's 
leaders a clear opportunity to leverage their historical ties with any 
jihadists who remain free.
                 al-qaeda groups in the sinai peninsula
    The Sinai has long been plagued by terrorism, among its many other 
problems. But since the ouster of Mohamed Morsi there has been a 
stunning increase in the violence. As my colleague at the Foundation 
for the Defense of Democracies David Barnett has documented, there have 
been more than 300 reported attacks in the Sinai from July 3, 2013 
through February 6, 2014. This violence has spilled over into the 
mainland, as Sinai-based groups are increasingly executing high-profile 
attacks in Egypt's densely-populated urban areas.
    There are credible reports of contacts between terrorists in the 
Sinai and al-Qaeda's senior leadership. In late July 2013, Ayman 
Zawahiri joined a ``conference call'' of more 20 al-Qaeda operatives 
around the globe that included ``aspiring al-Qaeda affiliates operating 
in the Sinai.''\14\ Zawahiri's contact with the Sinai jihadists 
reportedly prompted the closing of the U.S. Embassy in Tel Aviv. Other 
U.S. diplomatic facilities around the globe were closed because of the 
possibility of an impending terrorist attack. There are unconfirmed 
reports of handwritten communications from Zawahiri to terrorists in 
the Sinai.\15\ Egyptian security officials have alleged that the 
interrogations of terrorist suspects have revealed ties between the 
Sinai jihadists and ``groups which operate in Afghanistan and Pakistan, 
as well as other countries not just Gaza.''\16\ As I discuss more 
below, Muhammad Jamal, who established training camps in the Sinai, was 
in direct contact with Zawahiri.
---------------------------------------------------------------------------
    \14\ Eli Lake and Josh Rogin, ``Exclusive: U.S. Intercepted Al 
Qaeda's `Legion of Doom' Conference Call,'' The Daily Beast, August 7, 
2013. (http://www.thedailybeast.com/articles/2013/08/07/al-qaeda-
conference-call-intercepted-by-u-s-officials-sparked-alerts.html) The 
``conference call'' actually utilized a sophisticated internet-based 
communications system.
    \15\ ``Egypt's North Sinai Security Chief: We Are Chasing Ghosts in 
the Sinai,'' Al-Dustur Online (Cairo), November 11, 2012.
    \16\ Al-Misri al-Yawm, August 1, 2013.
---------------------------------------------------------------------------
    Several al-Qaeda-inspired and/or al-Qaeda-linked groups operate in 
the Sinai today. These include Ansar Bayt al-Maqdis (Ansar Jerusalem), 
al-Qaeda in the Sinai Peninsula (AQSP) and Ansar al Jihad, the Muhammad 
Jamal Network (MJN), the Mujahideen Shura Council in the Environs of 
Jerusalem (MSC), Al Salafiya Al Jihadiya in Sinai (Salafi Jihadist 
Movement in the Sinai), and al Tawhid wal Jihad, among others. In 
addition, al-Qaeda in the Arabian Peninsula (AQAP) has established a 
presence in the Sinai. Untangling this web of groups is extremely 
difficult, if not impossible. There is collusion between at least some 
of these groups. And it is possible that some of these organizations 
overlap, sharing a common infrastructure while operating under 
different names.
    In this section, I provide a brief overview of four of these 
organizations, before moving on to a longer treatment of Ansar 
Jerusalem. These five organizations are the most operationally 
relevant.
Al-Qaeda in the Sinai Peninsula (AQSP) and Ansar al Jihad
    In late July 2011, masked gunmen attacked a police headquarters in 
Arish and a gas pipeline. By some accounts, approximately 100 
terrorists were involved in the attack. During the initial arrests, 10 
Palestinians were identified as being among the attackers.\17\ Shortly 
after the assault, a statement was issued by a group calling itself al-
Qaeda in the Sinai Peninsula (AQSP). The statement called for the 
creation of an Islamic emirate in the Sinai. AQSP also called on the 
Egyptian Army to disregard the Camp David Accords and to end the 
``siege'' in Gaza.\18\
---------------------------------------------------------------------------
    \17\ Jailan Halawi, ``Egypt: Al-Qaeda in Sinai?,'' Al-Ahram Weekly, 
August 4, 2011.
    \18\ ``Security operation continues in North Sinai,'' Daily News 
Egypt, August 17, 2011.
---------------------------------------------------------------------------
    The reported emir of AQSP, which has been blamed for a string of 
attacks, is Ramzi Mowafi, Osama bin Laden's former physician.\19\ 
Mowafi is believed to be an explosives expert and to have worked on 
chemical weapons for al-Qaeda. Mowafi is another example of the 
phenomenon of ``old school'' jihadists returning to the fight.
---------------------------------------------------------------------------
    \19\ David Barnett, ``Former bin Laden doctor reportedly heads al 
Qaeda in the Sinai Peninsula,'' The Long War Journal, July 17, 2013. 
(http://www.longwarjournal.org/archives/2013/07/
former_bin_laden_doc.php).
---------------------------------------------------------------------------
    Another group calling itself Ansar al Jihad in the Sinai Peninsula 
is believed to be the military wing of AQSP. Ansar al Jihad announced 
its formation in December 2011, saying it vowed to ``fulfill the oath'' 
of slain al-Qaeda leader Osama bin Laden.\20\ Ansar al Jihad swore 
allegiance to al-Qaeda emir Ayman Zawahiri the following month.\21\
---------------------------------------------------------------------------
    \20\ Bill Roggio, ``Ansar al Jihad in the Sinai Peninsula announces 
formation,'' The Long War Journal, December 22, 2011. (http://
www.longwarjournal.org/archives/2011/12/ansar_al_jihad_in_th.php)
    \21\ Bill Roggio, ``Ansar al Jihad swears allegiance to al Qaeda's 
emir,'' The Long War Journal, January 24, 2012. (http://
www.longwarjournal.org/archives/2012/01/ansar_al_jihad_- swear.php)
---------------------------------------------------------------------------
    I find it curious that more attacks have not been claimed by AQSP 
and Ansar al Jihad. It is possible that the group is working in concert 
with one of the other jihadist organizations in the Sinai.
The Muhammad Jamal Network (MJN)
    Muhammad Jamal, who was first trained by al-Qaeda in the late 
1980s, was released from prison in 2011 and quickly got back to work. 
Jamal, who has long been a subordinate to Ayman Zawahiri, became so 
prolific that his operation was eventually designated by both the U.S. 
Government and the United Nations.\22\ Those designations make it clear 
that that the MJN operates as part of al-Qaeda's international network. 
The State Department revealed that Jamal has ``established links with 
terrorists in Europe.'' In addition to al-Qaeda's senior leadership, 
the MJN has strong ties to al-Qaeda in the Arabian Peninsula (AQAP) and 
al-Qaeda in the Islamic Maghreb (AQIM).
---------------------------------------------------------------------------
    \22\ The State Department's announcement of the designation can be 
found here: http://www.state.gov/r/pa/prs/ps/2013/10/215171.htm. The 
UN's designation can be found here: http://www.un.org/News/Press/docs/
2013/sc11154.doc.htm.
---------------------------------------------------------------------------
    Jamal was re-arrested in late 2012. Egyptian authorities discovered 
on a seized laptop that he had been communicating directly with Ayman 
Zawahiri.\23\ Jamal mentions in the letters that he sent an emissary to 
meet with Zawahiri after he was blocked from traveling abroad. Jamal 
claims to have trained several Yemenis who went on to form AQAP and 
says that AQAP has provided financing for his operations. Jamal writes 
that he has established training camps in both eastern Libya and the 
Sinai.
---------------------------------------------------------------------------
    \23\ Thomas Joscelyn, ``Communications with Ayman al Zawahiri 
highlighted in `Nasr City cell' case,'' The Long War Journal, February 
10, 2013. (http://www.longwarjournal.org/archives/2013/02/
communications_with.php)
---------------------------------------------------------------------------
    Jamal tells Zawahiri that he formed ``groups for us inside Sinai,'' 
which is an especially interesting revelation given that some jihadist 
groups there have openly proclaimed their allegiance to al-Qaeda. He 
also describes the Sinai as the ``the next confrontation arena with the 
Jews and the Americans.'' In addition to the Sinai, counterterrorism 
investigations have revealed that Jamal was a leader of the so-called 
``Nasr City cell'' in Cairo and that his network operates elsewhere in 
Egypt.
    As with al-Qaeda in the Sinai Peninsula (AQSP), I find it curious 
that the MJN has not claimed any attacks inside Egypt. Jamal's letters 
reveal that he has procured a significant amount of arms at great 
expense, including rockets, from Libya and has transported them into 
the Sinai. Who is using these arms today? What are Jamal's operatives, 
many of whom remain at-large, doing today?
    I surmise it is likely that the MJN is cooperating with other 
jihadist groups in the Sinai.
Mujahideen Shura Council in the Environs of Jerusalem (MSC)
    The MSC operates in both Gaza and the Sinai. The MSC claimed 
responsibility for a June 18, 2012, cross-border attack in Israel.\24\ 
One Israeli civilian was killed during the attack, which targeted 
construction workers building a security fence. The group identified an 
Egyptian and a Saudi as the lead attackers. The MSC dedicated the raid 
to Osama bin Laden and made its adherence to al-Qaeda's ideology 
unmistakable.\25\ ``We announce the formation of the Mujahideen Shura 
Council in the Environs of Jerusalem, as a base for jihadist work . . . 
to be part of the global project that aims to re-establish the 
Caliphate,'' the group announced in its video claiming responsibility 
for the attack.\26\ ``To the Jews, the enemies of Allah, we say: you 
should know, you infidels, that the future is different from the past . 
. . The time of negotiations and compromises is over,'' one MSC member 
said in the video.\27\
---------------------------------------------------------------------------
    \24\ Thomas Joscelyn, ``Al Qaeda-linked group claims responsibility 
for attack in Israel,'' The Long War Journal, June 19, 2012. (http://
www.longwarjournal.org/archives/2012/06/al_qaeda-linked_grou.php)
    \25\ Ibid.
    \26\ ``Unknown Islamists Claim Border Attack on Israel,'' NOW 
Lebanon (with Agence France Presse), June 19, 2012.
    \27\ Ibid.
---------------------------------------------------------------------------
    Months later, the MSC released a martyrdom video praising the lead 
Egyptian in the June 2012 attack. The MSC's advertisement for the video 
portrayed him as an al-Qaeda martyr, similar to lead 9/11 hijacker 
Mohammed Atta and al-Qaeda ideologue Anwar al-Awlaki.\28\ Also featured 
in the advertisement was Ahmed Ashush, the long-time ally of the 
Zawahiri brothers. In a separate video released on July 27, 2012, the 
MSC again claimed responsibility for the attack and said it was ``a 
gift to our brothers in al Qaeda and Sheikh Zawahiri,'' as well as 
retaliation for the death of Osama bin Laden.\29\ The MSC referred to 
Zawahiri as ``our sheikh'' and said it was ``continuing with our pledge 
of allegiance on the path of jihad.''
---------------------------------------------------------------------------
    \28\ Thomas Joscelyn, ``Egyptian involved in cross-border attack on 
Israel portrayed as al Qaeda `martyr','' The Long War Journal's Threat 
Matrix, February 8, 2013. (http://www.longwarjournal.org/threat-matrix/
archives/2013/02/egyptian_involved_in_cross-bor.php)
    \29\ Bill Roggio, ``Mujahideen Shura Council calls attack in Israel 
a `gift' to Zawahiri and al-Qaeda `brothers','' The Long War Journal, 
July 30, 2012. (http://www.longwarjournal.org/archives/2012/07/
egyptian_jihadist_gr.php) A translation of the video was provided by 
the SITE Intelligence Group.
---------------------------------------------------------------------------
Al-Qaeda in the Arabian Peninsula (AQAP) in the Sinai
    Citing ``American officials,'' The New York Times recently reported 
that AQAP ``has regular contact with jihadist groups in Lebanon and in 
the Sinai Peninsula.''\30\ This is not surprising given that AQAP help 
establish Muhammad Jamal's operations in the Sinai and elsewhere. 
Numerous published reports point to the presence of a significant 
number of Yemeni militants in the Sinai. It is likely that many of them 
are working on behalf of AQAP, which has also established a presence in 
Libya.
---------------------------------------------------------------------------
    \30\ Robert F. Worth and Eric Schmitt, ``Jihadist Groups Gain in 
Turmoil Across Middle East,'' The New York Times, December 3, 2013. 
(http://www.nytimes.com/2013/12/04/world/middleeast/jihadist-groups-
gain-in-turmoil-across-middle-east.html?pagewanted=2&_r=1&hp- 
&pagewanted=all&)
---------------------------------------------------------------------------
    In August 2012, CNN reported that ten ``Yemeni militants'' had 
``infiltrated Egyptian soil two months ago and trained local Jihadi 
cells in the Sinai Peninsula.''\31\ CNN cited a ``senior security 
official associated with Egypt's North Sinai's border guards'' as the 
source for this revelation. This anonymous official said intelligence 
reports showed the Yemenis ``were in communication with Jihadist cells 
in Al Mukataa, a remote area south of Sheikh Zuweid in Northern 
Sinai.'' CNN also cited two Bedouin leaders who were aware of the 
Yemeni militants' presence in the Sinai. One of these local Bedouins 
said that the Yemenis had been smuggled into the Sinai from Sudan.
---------------------------------------------------------------------------
    \31\ Mohamed Fadel Fahmy, ``Official: Yemeni militants infiltrated 
Egypt before Rafah attack,'' CNN.com, August 17, 2012. http://
www.cnn.com/2012/08/17/world/meast/egypt-yemen-militants/
---------------------------------------------------------------------------
    In early September 2013, the Associated Press reported that the 
Sinai ``has seen an influx of foreign fighters the past two months, 
including several hundred Yemenis.''\32\ The AP also reported that a 
Yemeni suspected of serving Ramzi Mowafi, the aforementioned head of 
AQSP, had been arrested. Three months later, in December 2013, a 
journalist for Al-Monitor published his account of an interview with a 
powerful tribesman in the Sinai who said that Libyans, Palestinians, 
and Yemenis were all operating in the Sinai.\33\ ``There are around 
1,000 al Qaeda fighters here in the Sinai Peninsula, operating under 
the different groups, and a lot of them are foreigners,'' the tribal 
leader claimed. (Estimates of the number of fighters vary greatly.) He 
also said that several of the major jihadist groups ``coordinate and 
sometimes run shared operations'' and they ``are affiliated to al Qaeda 
in one way or another.'' In early January 2013, the Daily Beast 
reported that ``Western officials believe that foreign jihadis, 
possibly from Yemen and Somalia, are among the several hundred 
extremists operating'' in the Sinai close to the Israeli border.\34\
---------------------------------------------------------------------------
    \32\ ``Local, foreign Islamic militants turn Egypt's Sinai [into] a 
new front for jihad,'' Associated Press, September 3, 2013. (http://
www.foxnews.com/world/2013/09/03/local-foreign-islamic-militants-turn-
egypt-sinai-new-front-for-jihad/)
    \33\ Mohannad Sabry, ``Al-Qaeda emerges amid Egypt's turmoil,'' Al-
Monitor, December 4, 2013. (http://www.al-monitor.com/pulse/originals/
2013/12/al-qaeda-egypt-sinai-insurgency-growing-influence.html)
    \34\ Alastair Beach, ``In the North Sinai, Jihadis Stand Down the 
Egyptian Government,'' The Daily Beast, January 6, 2013. (http://
www.thedailybeast.com/articles/2013/01/06/in-the-north-sinai-jihadis-
stand-down-the-egyptian-government.html)
---------------------------------------------------------------------------
                 ansar jerusalem (ansar bayt al-maqdis)
    Ansar Jerusalem is the most prolific of the Sinai-based jihadist 
organizations. In recent months, its operations have become more daring 
and sophisticated. And its attacks have stretched into the heart of 
mainland Egypt. Noteworthy attacks by the group include: A complex 
multi-stage assault in August 2011 that left eight Israelis and several 
Egyptians dead, successful and unsuccessful attacks on Egyptian 
officials (including car bombings), and the downing of an Egyptian 
military helicopter in late January. The attack on the helicopter 
involved a shoulder-fired missile, which indicates that the group's 
capabilities have greatly increased since its inception.
    Little is known about Ansar Jerusalem's inner workings, however. We 
do not know, based on open-source information, the extent of Ansar 
Jerusalem's connections to al-Qaeda's international network. Little is 
known about the identities and biographies of the group's founders or 
current leaders. Nor do we know how many members the group has, or how 
it is financed.\35\ Ansar Jerusalem's precise ties to other jihadist 
groups in Egypt, including the recently-formed Ajnad Misr, are also 
murky. (Ansar Jerusalem refers to Ajnad Misr as ``our brothers.'')
---------------------------------------------------------------------------
    \35\ Undoubtedly, U.S. intelligence officials have additional, 
Classified information on Ansar Jerusalem.
---------------------------------------------------------------------------
    Thus, counterterrorism analysts cannot know for certain the extent 
of the group's operational ties (if any) to al-Qaeda's senior 
leadership or al-Qaeda's official branches. This does not mean that 
such ties do not exist. In the past, al-Qaeda has groomed organizations 
and so-called affiliates without recognizing them, at least at first, 
as formal al-Qaeda entities.\36\ It could be the case, therefore, that 
Ansar Jerusalem is already acting as a clandestine arm al-Qaeda. We 
just do not know for certain one way or the other.
---------------------------------------------------------------------------
    \36\ For instance, Osama bin Laden instructed Shabaab, which became 
a formal affiliate of al-Qaeda in 2012, to hide its organizational ties 
to al-Qaeda. Jabhat al Nusrah hid its allegiance to Ayman Zawahiri at 
first and was branded in such a manner as to disguise its al-Qaeda's 
role in its creation. Senior al-Qaeda operatives have been leaders 
within organizations that are not officially recognized as al-Qaeda 
entities, such as Ahrar al Sham in Syria. And al-Qaeda employs multiple 
brands to increase its influence. In Yemen, for example, al-Qaeda in 
the Arabian Peninsula (AQAP) began using the name Ansar al Sharia. 
Other al-Qaeda-linked organizations have also adopted the same name, 
including Ansar al Sharia Egypt, which is headed by jihadists loyal to 
Ayman Zawahiri.
---------------------------------------------------------------------------
    Late last year, Egyptian officials alleged that a long-time 
Egyptian Islamic Jihad (EIJ) leader named Ahmed Salama Mabrouk plays a 
leading role in Ansar Jerusalem.\37\ If true, then this is a major red 
flag. Mabrouk has been a subordinate to Ayman Zawahiri for decades. He 
also served al-Qaeda after the EIJ became a part of Osama bin Laden's 
joint venture. After his release from prison in Egypt, Mabrouk starred 
at Ansar al Sharia Egypt events alongside Mohammed Zawahiri.
---------------------------------------------------------------------------
    \37\ See: http://www.shorouknews.com/news/
view.aspx?cdate=22122013&id=84d10683-9c61-44fc-a97a-08d4b8c3f954.
---------------------------------------------------------------------------
    With those uncertainties in mind, a survey of the available 
evidence shows that Ansar Jerusalem is, at a minimum, pursing al-
Qaeda's agenda and al-Qaeda's senior leadership approves of the 
organization.
    Ayman Zawahiri has repeatedly praised Ansar Jerusalem's operations. 
And the group routinely references senior al-Qaeda leaders in its 
propaganda videos. This is one reason why the group is commonly 
described as ``al-Qaeda-inspired'' in the press. The group has adopted 
al-Qaeda's tactics, including suicide bombings. And there are various 
other threads of evidence pointing to Ansar Jerusalem's international 
ties.
    My informed hunch is that Ansar Jerusalem has, at the very least, 
coordinated its activities with parts of al-Qaeda's international 
network. Below, I summarize some of the evidence connecting Ansar 
Jerusalem to the al-Qaeda network.
Propaganda distributed through al-Qaeda's channels
    Ansar Jerusalem distributes its propaganda through al-Qaeda's 
official on-line channels. In October 2013, the group issued a 
statement denying ``any connection to any account on social networking 
pages,'' adding that ``the only source of our statements and 
productions are the jihadi forums from al Fajr Media Center (Shumukh al 
Islam Network and al Fida' Islamic Network).''\38\ Al Fajr is al-
Qaeda's propaganda distribution arm, while the other two sites are al-
Qaeda-accredited. Ansar Jerusalem's messages are often ``stickied'' at 
the top of Shumukh, showing that they are considered important by the 
administrators on al-Qaeda's top websites.\39\
---------------------------------------------------------------------------
    \38\ SITE Intelligence Group, ``Ansar Jerusalem Claims Bombing at 
Military Intelligence HQ in Ismailia,'' October 21, 2013. The group 
repeated this statement about his distribution channels on January 24, 
2014.
    \39\ BBC Monitoring, ``Web monitoring report for 8-10 September 
2012,'' September 10, 2012.
---------------------------------------------------------------------------
    Ansar Jerusalem frequently includes clips of al-Qaeda's top leaders 
in its videos. Clips of Osama bin Laden and Abu Yahya al Libi (a top 
al-Qaeda operative killed in June 2012) discussing martyrdom were 
included in a video honoring a member of the group who had participated 
in the August 2011 attacks in Eilat.\40\ Another video, honoring a 
suicide bomber who blew himself up inside the South Sinai Security 
Directorate on October 7, 2013, included an audio clip of Ayman 
Zawahiri.\41\ Still another video featured a clip of deceased al-Qaeda 
in Iraq leader Abu Musab al-Zarqawi.\42\
---------------------------------------------------------------------------
    \40\ SITE Intelligence Group, ``Ansar Jerusalem Video Eulogizes 
Fighter, Shows Spy Interrogation,'' November 7, 2012.
    \41\ SITE Intelligence Group, ``Ansar Jerusalem Releases Video on 
Suicide Bombing at South Sinai Security Directorate,'' November 19, 
2013. The video also includes a clip of the deceased leader of the 
Islamic State of Iraq, Abu Omar al Baghdadi.
    \42\ SITE Intelligence Group, ``Ansar Jerusalem Releases Video of 
Training, Attacking Egyptian Soldiers,'' December 2, 2013. Also shown 
in the video is the spokesman for the Islamic State of Iraq and the 
Sham (ISIS).
---------------------------------------------------------------------------
    In January 2014, Ayman Zawahiri directed part of a message ``to our 
people in Sinai.'' A clip from an Ansar Jerusalem video, showing a 
funeral for some of its members, was included in this section of 
Zawahiri's message.\43\
---------------------------------------------------------------------------
    \43\ David Barnett, ``Zawahiri's message `to our people in 
Sinai','' The Long War Journal, Threat Matrix blog, January 27, 2014. 
(http://www.longwarjournal.org/threat-matrix/archives/2014/01/
zawahiris_message_to_our_peopl.php)
---------------------------------------------------------------------------
Ansar Jerusalem's rocket attacks on Israel, gas pipeline bombings, and 
        other operations
    Ansar Jerusalem has repeatedly launched rockets at Israel and 
attacked the Arish-Ashkelon pipeline. In an August 2011 audio message, 
Zawahiri praised the gas pipeline attacks, which Ansar Jerusalem has 
claimed as its own. ``Not only does the siege of Gaza continue, but 
also continues the provision of Israel with Egyptian gas at prices 
lower than the market price,'' Zawahiri said in the video. ``Were gas 
sold to Israel at a price higher than the market price, it would be a 
crime. What can [you] then say about this compound crime?!'' Zawahiri 
continued: ``I here commend the heroes who blew up the gas pipeline to 
Israel. I ask Allah to reward them for their heroic act, for they have 
expressed the anger of the Islamic Ummah against this continuing crime 
from the reign of Hosni Mubarak to the rule of the Military Council . . 
. ''.\44\
---------------------------------------------------------------------------
    \44\ SITE Intelligence Group, ``Zawahiri Charges America with 
Hijacking the Egyptian Revolution,'' August 8, 2011.
---------------------------------------------------------------------------
    Two months later, in a video released in October 2011, Zawahiri 
lauded Ansar Jerusalem's attacks on Eilat, Israel. Ansar Jerusalem 
claimed responsibility for the attacks in a statement released on 
September 7. The attacks were carried out on August 18 and killed eight 
Israelis. ``And just as I congratulated our people in Libya for their 
great victory,'' Zawahiri said in his video, ``I congratulate our 
mujahideen brothers who carried out the two Eilat operations.'' 
Zawahiri claimed that one ``of the gains of [Ansar Jerusalem's] 
operation was exposing the treason of the ruling military council, 
which was quick to send its troops to chase [Ansar Jerusalem's 
terrorists] in order to protect Israel's security, and then begging 
from Israel to increase the forces in the area so as to pursue Israel's 
enemies.''\45\
---------------------------------------------------------------------------
    \45\ SITE Intelligence Group, ``Zawahiri Praises Libyan Rebels, 
Eilat Attackers; Urges Algerians to Revolt,'' October 11, 2011. 
Zawahiri further claimed that the United States had ``commissioned'' 
Egypt's ruling military council. His statement was recorded sometime in 
August or September 2011, meaning it could have been recorded either 
before or contemporaneous with Ansar Jerusalem's claim of 
responsibility for the Eilat attacks.
---------------------------------------------------------------------------
    Zawahiri has trumpeted Ansar Jerusalem's gas pipeline attacks on 
multiple other occasions. In a June 2012 video, Zawahiri heaped praise 
on the group, calling Ansar Jerusalem members ``brave lions'' and 
saying that they should serve as the ``guiding example'' for Muslims. 
``I take this opportunity to salute the brave lions, the mujahideen, 
who blew up the gas pipe to Israel for the thirteenth time,'' Zawahiri 
said in the video. Al-Qaeda's emir continued: ``May Allah salute you as 
lions who do not let justice go in vain, or accept humiliation, and do 
not accept for the fortunes of the Muslims to be given to their 
enemies. Therefore, go on the path of Jihad and count what you meet in 
the Cause of Allah, who does not let the reward of His workers go to 
waste. Be the guiding example for every free, honorable person who is 
passionate for Islam in the Egypt of Islam and jihad.''\46\
---------------------------------------------------------------------------
    \46\ SITE Intelligence Group, ``Zawahiri Demands Shariah in Egypt, 
Remarks on Razing of Bin Laden House,'' June 17, 2012.
---------------------------------------------------------------------------
    In July 2012, Ansar Jerusalem issued a video claiming 13 attacks on 
the pipeline. Several clips of Ayman Zawahiri were played throughout 
the video. The clips show Zawahiri praising the pipeline bombings on at 
least three separate occasions. In one scene, terrorists are shown 
planting an explosive device at the pipeline while an audio clip from 
Zawahiri is played in the background: ``Just giving gas to Israel is a 
crime even if it is for the market price, so imagine that it is below 
the market price. Thus, it is a crime by Mubarak that is continued by 
the ruling military council.'' As the bomb explodes, Zawahiri 
continues: ``The greeting goes to the heroes who blew up the gas 
pipeline and who represent the dignity of the Egyptian people. May 
Allah bless them, until they see the Islamic Caliphate ruling over the 
countries of Islam. I ask Allah to grant them patience and 
determination, and to reward them in the best way in this life and the 
hereafter.'' Subsequent clips of Zawahiri in Ansar Jerusalem's July 
2012 video show the al-Qaeda master praising the gas pipeline attacks 
after the ``tenth'' and ``twelfth'' such attacks.\47\
---------------------------------------------------------------------------
    \47\ SITE Intelligence Group, ``Ansar Jerusalem Releases Video of 
Bombing Arish-Ashkelon Pipeline,'' July 24, 2012. Like other Ansar 
Jerusalem messages, the video was released on al-Qaeda's Shumukh al-
Islam forum.
---------------------------------------------------------------------------
Used the video ``Innocence of Muslims'' as a pretext for terrorism
    Ansar Jerusalem has claimed responsibility for a cross-border raid 
that killed an Israeli soldier on September 21, 2012.\48\ Three 
jihadists were also killed in the attack, which was dubbed the ``raid 
of punishment.'' Ansar Jerusalem claimed the assault was retaliation 
for the video ``Innocence of Muslims'' and necessary ``to discipline 
those insulting the beloved Prophet.''\49\
---------------------------------------------------------------------------
    \48\ Bill Roggio, ``Ansar Jerusalem claims attack on Israeli troops 
in the Sinai,'' The Long War Journal, September 23, 2012. (http://
www.longwarjournal.org/archives/2012/09/ansar_jerusalem_clai.php)
    \49\ ``Egypt jihadi groups say behind deadly Israeli border 
attack,'' Al-Masry Al-Youm Online, September 23, 2012.
---------------------------------------------------------------------------
    As I've reported, multiple known al-Qaeda actors seized upon the 
anti-Islam video as a pretext to justify protests and assaults on U.S. 
diplomatic facilities beginning on September 11, 2012.\50\ Ansar 
Jerusalem's use of the video to justify an attack in Israel is a good 
example of how the video was used as a pretext, not a true motivation, 
by jihadists allied with al-Qaeda. Ansar Jerusalem blamed Jews for 
producing the film, even though there was no Jewish involvement in its 
production. And, in reality, Ansar Jerusalem did not need the video 
justify its attacks as it struck Israel both before and long after the 
video became widely known.
---------------------------------------------------------------------------
    \50\ See: Thomas Joscelyn, ``Al Qaeda Lives,'' The Weekly Standard, 
December 24, 2012. (http://www.weeklystandard.com/articles/al-qaeda-
lives_666594.html)
---------------------------------------------------------------------------
    On January 11, 2013, Ansar Jerusalem released a video in which it 
once again claimed that the attack in Israel was in response to 
Innocence of Muslims. The group cited Osama bin Laden as saying, ``If 
the freedom of your expression has no limit, then your chests should 
bear the freedom of our actions.''\51\ This quote, or a similar one, 
was used by jihadists with known al-Qaeda ties to justify the protest-
turned-assault on the U.S. Embassy in Cairo on September 11, 2012.\52\ 
Indeed, the Ansar Jerusalem video contains footage from that pro-al-
Qaeda event. The video also contains an audio clip of Abu Musab al-
Zarqawi, the former leader of al-Qaeda in Iraq who was killed in 
2006.\53\
---------------------------------------------------------------------------
    \51\ SITE Intelligence Group, ``Ansar Jerusalem Releases Video on 
9/2012 Cross-Border Attack,'' January 14, 2013.
    \52\ Thomas Joscelyn, ``CIA Warned of `Jihadist' Threat to Cairo 
Embassy,'' The Weekly Standard, May 15, 2013. (http://
www.weeklystandard.com/blogs/cia-warned-jihadist-threat-cairo-
embassy_724570.html)
    \53\ SITE Intelligence Group, January 14, 2013.
---------------------------------------------------------------------------
Threatened retaliation for Israel's killing of two top terrorists in 
        Gaza
    On October 15, 2012, Ansar Jerusalem threatened retaliation against 
Israel for the killing of two jihadist leaders, Hisham al Saedni 
(a.k.a. Abu al Walid al Maqdisi) and Ashraf Sabah (a.k.a. Abu al Bara'a 
al Maqdisi). Al Saedni, an Egyptian, was the founder and leader of the 
Tawhid and Jihad Group, which is, at a minimum, al-Qaeda-inspired.
    Al Saedni reportedly fought with al-Qaeda in Iraq. Although he was 
based in Gaza and even detained for a time by Hamas, the Israeli 
military accused al Saedni of planning operations from inside the 
Sinai. His biography shows, therefore, that al Saedni had been a 
transnational terrorist throughout his career and it is possible that 
he cooperated with Ansar Jerusalem. There are numerous other accounts 
pointing to collusion between Ansar Jerusalem and terrorists based in, 
or traveling to, Gaza.\54\
---------------------------------------------------------------------------
    \54\ Just recently, Israeli forces claimed to have killed a 
terrorist in the Gaza Strip who had ``cooperated'' with Ansar 
Jerusalem. See: Elior Levy, ``IAF strikes Gaza; Israel says member of 
Global Jihad wounded,'' ynetnews.com, February 9, 2014. (http://
www.ynetnews.com/articles/0,7340,L-4486138,00.html) Egyptian security 
officials have also claimed that Ansar Jerusalem members have escaped 
security operations in the Sinai by fleeing to Gaza. See: ``Ansar Bayt 
al-Maqdis members escape to Gaza, Marsa Matrouh,'' Al-Masry Al-Youm, 
September 12, 2013. (http://www.egyptindependent.com/news/ansar-bayt-
al-maqdis-members-escape-gaza-marsa-matrouh)
---------------------------------------------------------------------------
    It is possible that the Tawhid and Jihad Group is more than merely 
inspired by al-Qaeda as well. Ayman Zawahiri released a eulogy for al 
Saedni, praising him as ``our brother.'' Zawahiri also cited al-Qaeda's 
guidelines, which was named as a ``Document for Supporting Islam,'' and 
said that al-Qaeda had called on Muslims ``to unite under the word 
Tawhid.'' Thus, Zawahiri implicitly connected al Saedni and his group 
to al-Qaeda's plans. Indeed, al Saedni was working to unite jihadist 
groups in Gaza under one banner. The praise for al Saedni from both al-
Qaeda and Ansar Jerusalem is yet another example of how the two count 
the same terrorists among their ``brothers.'' Both al Saedni and Sabah 
were reportedly leaders in the Mujahideen Shura Council in the Environs 
of Jerusalem as well.
Assassination attempt on Egyptian Interior Minister
    Ansar Jerusalem has claimed responsibility for the September 5, 
2013 assassination attempt on Egyptian Interior Minister Mohammed 
Ibrahim. On October 26, 2013, the group released a video dedicated to 
the suicide bomber responsible for the operation, a former major in the 
Egyptian army named Walid Badr. The video is framed by an audio clip 
from Ayman Zawahiri at the beginning and a video clip of Zawahiri at 
the end.\55\
---------------------------------------------------------------------------
    \55\ SITE Intelligence Group, ``Ansar Jerusalem Releases Video on 
Assassination Attempt on Egyptian Interior Minister,'' October 27, 
2013. Also included in the video is a clip of a spokesman from the 
Islamic State of Iraq and the Sham (ISIS), which was then a branch of 
al-Qaeda but has since been disowned by al-Qaeda's senior leadership.
---------------------------------------------------------------------------
    In the closing scene Zawahiri says that the conflict in Egypt is 
``a struggle between political parties, but a struggle between 
Crusaders and Zionists on one side and Islam on the other side.''\56\
---------------------------------------------------------------------------
    \56\ Liam Stack and Robert Mackey, ``Egyptian Jihadists Cite 
Zawahiri in Video Claiming Responsibility for Cairo Attack,'' The New 
York Times, The Lede blog, October 29. 2013. (http://
thelede.blogs.nytimes.com/2013/10/29/egyptian-jihadists-cite-zawahiri-
in-video-claiming-responsibility-for-cairo-attack/
?_php=true&_type=blogs&_r=0)
---------------------------------------------------------------------------
    Badr's story demonstrates how Ansar Jerusalem is connected to the 
al-Qaeda-led global jihadist network. The video by Ansar Jerusalem 
celebrating his ``martyrdom'' says he traveled to Afghanistan and 
participated ``with his brothers in deterring the Crusader campaign 
against the proud land of Khorasan.'' This is a reference to the 
America-led campaign in Afghanistan that began in late 2001. Badr 
attempted to fight in Iraq as well, but he ``was arrested in Iran, 
where he was put in prison for about a year,'' before he returned to 
Egypt. At some point, he traveled to Syria to fight Bashar al Assad's 
regime, only to return to Egypt once again and become a suicide 
bomber.\57\ This sequence of events shows that Badr managed to fight in 
three different theaters (Afghanistan, Syria, and Egypt), making him a 
global jihadist.
---------------------------------------------------------------------------
    \57\ SITE Intelligence Group, October 27, 2013.
---------------------------------------------------------------------------
    There are still additional details in Badr's story that connect him 
and Ansar Jerusalem to the al-Qaeda network. Egyptian officials alleged 
that he was trained by the Muhammad Jamal Network in one of its Libyan 
camps.\58\ And, in late October 2013, Egyptian security sources 
arrested Nabil al Maghraby, whom they described simply as ``a key al-
Qaeda operative.''\59\ Al Maghraby is one of the old school jihadists 
let out of prison in the wake of the Egyptian revolution. He had been 
imprisoned for the 1981 assassination of Egyptian president Anwar 
Sadat, but was freed by a presidential pardon from Mohamed Morsi in 
2012. Egyptian authorities described al Maghraby as ``a close 
associate'' of Badr.
---------------------------------------------------------------------------
    \58\ ``Jihadists see Sinai as `next frontier' in war against U.S., 
Israel,'' UPI, October 30, 2013. (http://www.upi.com/Top_News/Special/
2013/10/30/Jihadists-see-Sinai-as-next-frontier-in-war-against-US-
Israel/UPI-44931383144187/)
    \59\ ``Egypt arrests al Qaeda militant previously jailed for Sadat 
murder,'' Reuters, October 29, 2013. (http://www.reuters.com/article/
2013/10/29/us-egypt-militants-idUSBRE99S0WP2013- 1029)
---------------------------------------------------------------------------
    Thank you again for inviting me to testify today. I look forward to 
answering your questions.

    Mr. King. Thank you, Mr. Joscelyn.
    Our next witness is Mr. Mohamed Elmenshawy, who is a 
resident scholar and a director of languages at the regional 
study program at the Middle East Institute.
    Mr. Elmenshawy, we certainly look forward to your 
testimony, and you are recognized. Thank you.

STATEMENT OF MOHAMED ELMENSHAWY, RESIDENT SCHOLAR AT THE MIDDLE 
                       EASTERN INSTITUTE

    Mr. Elmenshawy. Thank you, Mr. Chairman, and Ranking Member 
of the committee, for inviting me to speak about this important 
topic today.
    It is rather demoralizing that we are having this 
conversation exactly today, February 11. Actually 3 years ago, 
exactly as Steven mentioned, millions of Egyptians celebrated 
the resignation of former President Hosni Mubarak after 30 
years of autocratic rule.
    For a moment, some believed that forcing such a strong 
regime to surrender to the desire of nonviolent protestors 
meant a huge setback for al-Qaeda and other militant groups' 
ideologies that advocate violence and use of terrorism as only 
tool for change. Yet, the events in Egypt, however, continue to 
unfold.
    The first-ever democratically-elected president of the 
country's history was brought to office later on. Exactly a 
year later, on June 30 last year, massive protestors flooded 
the streets of Egypt asking for early retirement, and that 
triggered--triggered the military to intervene and oust the 
President on July 3. This is the context in which we are 
examining our topic today.
    I would like to address three major indicators that affect 
the counterterrorism efforts in Egypt: First, the potential for 
political revolution for Egypt's existing political crisis; 
second, the increased trend to resort to violence; and the 
perception of the United States and its role in these events.
    Egypt, as we know now, they have no potential for political 
solution--resolution at this moment. We have witnessing huge 
polarization in Egyptian social and political forces. It is a 
zero-sum game between the two competing bodies of Egypt, the 
military and the Muslim Brotherhood. Meanwhile, the security 
solution continue to gain upper hand, thus culminating by 
designing the Muslim Brotherhood as a terrorist group in 
December 25 last year.
    Currently, the majority of the Muslim Brotherhood's 
leadership are behind bars and awaiting trial and the President 
himself is facing serious charges, including espionage. If 
convicted, he would face capital punishment.
    Some Egyptian independent sources indicate that civilians 
killed since the ousting of Morsi reach number 2,421 as well as 
174 police officer and 70 from the military, in addition to 11 
journalists in this 7 months.
    Second important issue I would like to call--to talk about 
today is the resort to violence by all political forces in 
Egypt. Where the political avenues is closed, there is trend to 
use violence by al-Qaeda militant group and other people 
especially they use recently.
    It is very important to distinguish between the two 
emerging form of militants in Egypt. One is the terrorist fight 
operating in Sinai, especially the Ansar Bayt al Maqdis--and in 
Sinai it is multi-dimensional group that operating using 
violence, and some of them are local Bedouin who are fighting 
marginalization by the Cairo government and some of them 
extensive organized crime--criminals who are doing smuggling 
and trafficking of men and woman and weapons--and most 
importantly, in Sinai, of course, as our colleague said, the 
Ansar Bayt al Maqdis, which in Arabic is Companion of 
Jerusalem, which has been the champion of violence in Sinai in 
last few months.
    In talking about these people, they have, in last 2 months, 
changed their tactic dramatically. They moved their operation 
outside Sinai to, we believe, an area in Egypt, in Cairo, in 
Dakahlia and in Mansoura and Ismailiyya and others, and they 
show some sophistication of this capability by downing a 
military helicopter a few weeks ago and killing the 5 crew 
members.
    In addition to this violent militant group, there is a new 
trend of violence by use of the revolution. We have a group 
called ``Walaa','' which is ``burn,'' and Molotov Movement, 
which claimed responsibility for burning a lot of cars and 
bikers of the military and the police officers.
    How this affects the United States force. Within this 
brutalized society in Egypt now, the only issue that unites 
Egyptians is blaming United States for lots gone wrong.
    Islamists believe Washington supported the coup against 
President Morsi, while pro-military Egyptians believe 
Washington has a special relation with the Brotherhood that was 
instrumental in installing Morsi as President.
    Some of this negativity towards the United States is result 
of conspiracy theories based on unsubstantiated accusations 
that are propagated by sensational media, which is widely 
influential in Egypt today.
    A lot of claims, which are ridiculous in some sense, are 
all over Egypt media, such as the United States wants to divide 
Egypt into small states and Brotherhood takes its orders 
directly from the White House and from President Obama.
    This negativity perception of the United States so far 
doesn't translate to any direct threat to U.S. interest in the 
region. These different violent trends I described, including 
al-Qaeda and Sinai and others, have focused on hard Egyptian 
targets, mainly military and police so far.
    But there is no doubt, this current popular mood in Eqypt 
towards the United States and lack of political openness is 
creating an environment less hospitable to the United States in 
the region.
    My assessment is there is no reason to believe at this 
stage that there is an imminent risk of violence within the 
United States emanating from its current position in Egypt; 
however, I believe that the deadlock of Egyptian politics today 
make it very difficult to cooperate with other countries in 
countering terrorism.
    I will be happy to answer any question.
    [The prepared statement of Mr. Elmenshawy follows:]
                Prepared Statement of Mohamed Elmenshawy
                            11 February 2014
    Mr. Chairman and Members of the subcommittee, thank you very much 
for inviting me here today to discuss this important issue. It is 
rather demoralizing that we are having this conversation today. Exactly 
3 years ago, millions of Egyptians celebrated the resignation of former 
president Hosni Mubark after 30 years of autocratic rule.
    For a moment, some believed that forcing such a strong regime to 
surrender to the desire of non-violent protestors meant a huge set-back 
to al-Qaeda and other groups with militant ideologies that advocate the 
use terrorism and violence as the only tool for change.
    Events in Egypt, however, continued to unfold. After bringing down 
former President Mubarak, the first-ever democratically-elected 
president in the country's history was brought to office. Exactly a 
year later, on June 30, 2013, massive protests flooded the streets 
calling for early presidential elections and triggering a military 
intervention that ousted the elected president on July 3.
    These events have ushered in a period of unprecedented use of 
violence by militant groups (especially in Sinai) as well as by the 
state.
    This is the context in which we are examining our question today.
    To address it, I will look at three relevant indicators:
    (1) The potential for political resolution.
    (2) The trends and characteristics of the resort to violence.
    (3) The perceptions of the U.S. role in the events.
    First: The potential for political resolution.
    The potential for political resolution at the moment is in my 
assessment negligible. While the position of the Egyptian government is 
centered around accepting the roadmap declared on July 3, the 
opposition groups led by the Muslim Brotherhood continue to demand the 
reinstatement of the ousted president. Well-known international efforts 
led by the European Union, the United States, and some other Arab 
governments have failed to achieve any rapprochement in these opposing 
positions.
    Meanwhile the security solution continued to gain the upper hand 
and culminated in the designation of the Muslim Brotherhood as a 
terrorist organization on the 25th of December 2013. Currently, the 
majority of the Muslim Brotherhood's leadership is in prison and the 
ousted president is on trial for a growing list of offences that 
recently expanded to include espionage. If convicted he faces mandatory 
capital punishment. Independent figures estimate the total numbers in 
prison to be thousands from the ranks of the Brotherhood and its 
sympathizers. The number of civilians killed in confrontations with the 
security apparatus is estimated to be 2,421, as well as 174 from the 
police, 70 from the military, and 11 journalists according to 
independent Egyptian source ``Wikithawra''.
    The recent wave of arrests of journalists and the lack of response 
to mounting international pressure further illustrate the security bias 
and the shrinking influence of the moderate voices within the current 
government. The security approach has been constantly expanding and 
reaching political activists that were in opposition to the MB 
government and supportive of the roadmap. It is also expanding to 
ordinary forms of political activism.
    On the other hand, the protests by the Brotherhood and its ``Anti-
Coup alliance'' continue to totally reject the roadmap. Reinstituting 
the ousted president remains their position.
    The potential for political resolution is further hindered by the 
unparalleled level of social and political polarization. A ``zero-sum'' 
attitude is prevalent among all the main players. A poll conducted by 
Zogby International in September 2013 revealed that 50% of Egyptians 
want the Brotherhood completely banned from political life. The few 
political figures from the supporters of the current government who 
called for reconciliation have faced severe backlash by the media that 
amounted to character assassination.
    Second: The trends and characteristics of the resort to violence.
    As political avenues continue to close, the trend towards 
violence--including by al-Qaeda-style groups--is on a steady rise. Here 
it is helpful to distinguish between violence emerging out of militant 
groups in the Sinai Peninsula and the new trend towards violence 
amongst youth protestors.
    Militant presence in Sinai is not new. From 2004 through 2007, a 
wave of terrorist attacks was carried out against tourist resorts in 
southern Sinai that killed about 200 people. Violence in Sinai is 
multifaceted. Some is carried out by local Bedouin groups against the 
central government in retaliation for marginalization and heavy-handed 
security practices. Some is linked to the Arab-Israeli conflict and 
aims to undermine Egypt's peace treaty with Israel. Other violence is 
linked to extensive organized criminal activities including drug and 
human trafficking and smuggling of weapons. Finally, most of the 
violence is the result of Qaeda-style militant groups taking refuge in 
Sinai because of its topography that defies policing.
    After the temporary collapse of the police force on 28 January 
2011, violence increased significantly in Sinai as illustrated by the 
regular attacks on the gas lines transporting gas to Jordan and Israel 
and police stations.
    Since the ousting of president Morsi, a group called the Ansar Beit 
Al Maqdes Arabic for ``Companions of Jerusalem'' came to prominence 
with a constant stream of attacks inside Sinai against military and 
policy targets, which resulted in the death of dozens policemen and 
military personnel.
    Since November 2013, we should note two emerging trends in the 
violence by ``Companions of Jerusalem'' group: They have begun to carry 
out operations in the densely-populated areas of the Nile Delta and 
Cairo. This included the bombing of the Security Headquarter in 
Mansoura on December 24, which led to the designation of the MB as a 
terrorist group the next day. It also included a number of attempted 
and successful assassinations of senior police figures, such as the 
attempted assassination of the Minister of Interior on September 5.
    The other trend is the increased sophistication and capabilities of 
the group in Sinai. This was clearly illustrated when the group claimed 
responsibility for downing a military helicopter in Sinai in late 
January killing all 5 crewmembers on board. Based on a video released 
by the group purporting to show the attack, the militants used a 
shoulder-fired missile which required serious training and are 
considered to be more advanced than weapons systems previously seen 
among militant groups.
    Equally significant is the trend towards the use of violence by 
youth groups that do not fit the typical profile of militant 
organizations. The Facebook pages of two unknown groups: Walaa' Arabic 
for ``Burn'' and ``Molotov Movement'' claimed responsibility for some 
recent attacks against police and military assets. ``Walaa' '' states 
on its Facebook page that it is a popular movement aiming to resist the 
oppressive state. The movement also states that it has no political or 
religious affiliation. These Facebook-formed groups call for burning 
and destroying the newly rising ``repressive state'' by targeting 
police and military vehicles. The burning of police vehicles has become 
a daily event in the news in Egypt in recent weeks.
    Third: The perceptions of the U.S. role in the events.
    It seems that the perception of the United States is the only issue 
that unites highly-divided Egyptians at this stage. Islamists believe 
that Washington supported a coup against the elected president, while 
pro-military Egyptians believe that Washington has a special 
relationship with the Brotherhood and was instrumental in installing 
Morsi as president.
    The Egyptian public is overwhelmingly negative toward the United 
States and few Egyptians say it is important to have a strong bilateral 
relationship with Washington. More than half of the public thinks U.S. 
financial assistance has a negative impact on Egypt.
    A poll conducted last summer by Pew Research showed that 81% of 
Egyptians have expressed an unfavorable opinion about the United States 
with only 16% favorable. Negative perceptions of the United States have 
been consistent in recent years. These numbers reflect attitudes that 
are more negative today than during much of President George W. Bush's 
time in office.
    According to the same poll, few in Egypt find having a good 
relationship with the United States a priority. Only 24% say it is 
important for Egypt to have a strong partnership with America, while 9% 
think it is very important. Nearly 7 in 10 (69%) say a good bilateral 
relationship is not very important or not at all important.
    Some of the negativity towards the United States, to be sure, is 
the result of conspiracy theories and unsubstantiated accusations that 
are propagated by sensational media. They include claims such as the 
``the United States wants to divide Egypt'' into several states; that 
``Morsi was an American spy''; and that ``the Brotherhood takes its 
orders directly from Obama''.
    Conversely, some Islamists retain anger against the United States 
for tolerating the repressive tactics of Mubarak's regime. Currently, 
almost all Islamists believe America has abandoned Morsi and 
``electoral legitimacy'' after his July 3 overthrow. Of course, many 
also still retain the belief that the United States is against any form 
of Islamism by default. They see the recent policy on events in Egypt 
as proof.
    So far this negative perception of the U.S. role has not translated 
into violence against U.S. interests. The different violent trends that 
I described today, including al-Qaeda-related groups, have focused so 
far on ``hard'' Egyptian targets mostly linked to the security 
apparatus. There is no doubt however that the current popular mood in 
Egypt and the lack of genuine political openness is creating an 
environment less hospitable to the United States in the region. It is 
my assessment that there is no reason to believe at this stage that 
there is an imminent risk of violence within the United States 
emanating from the current situation in Egypt.
    Thank you, Mr. Chairman, for giving me the opportunity to testify 
before your committee today. I look forward to answering any questions 
you or your colleagues may have.

    Mr. King. Thank you very much, all of you, for your 
testimony.
    There is many new names and groups being mentioned. I would 
just state for the record that Ansar Bayt al Maqdes, ABM, and 
Ansar Jerusalem are the same organization. They're just 
different terms, same organization, just to get them in the 
record.
    It seems there is a consensus that there is an emerging 
threat there, something we--something we have to be very 
concerned about. This is a fertile area and, ultimately, it 
could be used as an attack against the homeland or just an 
attack against our interests in the Middle East.
    I would ask each of you actually two questions, and you can 
just go around among yourselves.
    First of all, do you believe that other intelligence 
agencies in the region who are allied with us share this 
concern that you have--we have?
    Second, what advice would you give to the United States in 
its dealings with Egypt to effectively move against these 
groups?
    We'll start with Dr. Cook and go across.
    Mr. Cook. Thank you very much. Those are two important 
questions.
    I think the relevant and most important intelligence agency 
in the region is, obviously, the Israelis. As I mentioned in my 
testimony and as I have submitted in my written testimony, 
Israelis have expressed concern about the deterioration of 
security in the Sinai for quite some time and are particularly 
concerned about the turn of events there; so, I think that they 
do share the assessment.
    They are primarily concerned with the destabilization of a 
country of almost 90 million people on their border, but I 
think that they see a broader view of it in the same way that 
my colleague Mr. Joscelyn sees it, as an emerging threat that 
has the potential to not only threaten them, but to threaten 
the United States as well.
    In terms of what the United States can do to be helpful for 
the Egyptians--this is something that I started to get into in 
my remarks--I think that we have had a robust debate here in 
Washington about how best to help Egypt become a more 
democratic country.
    I think the trajectory of Egyptian politics is clearly an 
authoritarian one, not a democratic one. Suspending or delaying 
military aid isn't going to make Egypt more democratic at this 
moment. It's also not going to make Egypt less unstable. It is 
also not going to help Egypt's security situation.
    We need to work very closely with the Egyptian armed forces 
who, as I said, have been reluctant to rethink their doctrine 
for 21st Century threats, but have been more open to it more 
recently.
    In my written testimony, I have specific recommendations 
for this, but I think that the only way--the only way that the 
Egyptians will really listen to the United States in this area 
is if we reassure them that we do stand with them.
    The proposals to suspend aid, to delay certain important 
pieces of equipment, like Apache helicopters, actually do 
damage to the trust that we have tried to build up between the 
United States and the Egyptian armed forces over many, many 
years.
    If we were to resume--if we were to resume the aid 
relationship the way it has been, we do have an opportunity to 
work with the Egyptians in developing their doctrine in a way 
that will be more responsive to these threats.
    That is not to suggest that this is a--this is an easy 
situation. I think everybody supports Egypt becoming a 
democracy. That is a laudable goal. I have written quite a bit 
about that.
    But if we are thinking in the current environment what the 
United States can do and what our security interests are, it 
means working with the Egyptian armed forces specifically in 
countering this threat.
    Thank you.
    Mr. King. Mr. Joscelyn.
    Mr. Joscelyn. I think you can tell by press reporting that 
a number of intelligence agencies around the region and the 
world are worried about the growing threat, in particular, 
Israel, as my colleague here says.
    Israel is concerned because what is happening in the Sinai 
is connected with what happens in Gaza. There is movement back 
and forth, obviously. Israel has come under attack from Council 
of Jerusalem or ABM a number of occasions.
    In August 2011, there was a sort of sophisticated Mumbai-
style attack against Israeli tourists and others that, 
basically--what happened was Israelis then had to chase 
Egyptian assailants back into Sinai and this created a major 
problem for Israel because it sparked outrage and protests 
leading to the Israeli embassy basically being assaulted.
    On your latter point--latter question about what we should 
do about it, I think that what we have to understand is that 
Ansar Jerusalem, ABM, these groups, they are terrorist 
organizations, but they are more than that. They are insurgents 
and they are operating as a low-grade, right now, insurgency.
    So Egypt's policies, in terms of combatting them, has to 
take that in mind in understanding that, if you get too heavy-
handed in your tactics, too sort-of cavalier in what you are 
doing, you can actually feed into what these groups want to do 
in terms of winning over new recruits.
    This is something, as you know, Congressman, that it took 
the United States a number of years to get right in Iraq and 
elsewhere to--understanding how to work with local partners to 
basically counter the threat of these groups.
    I think that is really the main issue in the Sinai, is that 
there are definitely groups that be can embraced by the state 
there to try and work against these emerging al-Qaeda threats.
    Mr. King. Mr. Elmenshawy.
    Mr. Elmenshawy. I believe a lot of intelligence agency are 
interested in what is wrong with Egypt, of course, Israeli in 
the top, and Arab countries as well, because what is happening 
in Egypt won't stay in Egypt and they know that for the soft 
power Egypt enjoy and are still enjoying over the region.
    As for the United States, I believe they have big dilemma 
here. It is very difficult to cooperate with Egyptian 
government in the current situation because the democratic 
process imposed by the military is not inclusive to all 
political forces, especially the Muslim Brotherhood.
    The mission of the Brotherhood as terrorist group on 
December 25 hurts counterterrorism effort because they put them 
in the same group with real radical militant groups such as 
Ansar Bayt al Maqdis, which is the focus of everybody today.
    Motion the government of Egypt privately and publicly to 
have a real democratic process that include everybody, 
include--with concerns to have unity within Egyptian and having 
the Muslim Brotherhood to be a legal and legitimate player will 
help counterterrorism efforts.
    But excluding them, it's very golden opportunity to use by 
al-Qaeda and other militants to recruit angry young Muslim 
Brotherhood and besides that are members who will find 
democracy doesn't serve their goal and their aspiration, and 
they may resort to terrorism and violence.
    Besides that, I believe in this atmosphere where United 
States is blamed by everybody in Egypt, Islamists, pro-
military, pro-everybody and, at any action, some of this 
ridiculously orchestrated, I believe United States should say 
publicly: We are dealing with the ruler of Egypt. We are not 
choosing who is in charge. We dealt with Mubarak and with 
Tantawi, with Morsi, with Sisi, and we are not responsible for 
whoever in charge of Egypt. We just deal with whoever ends up--
had their ballots--the presidential ballots to Egypt and stay 
away from calling repeatedly in conferences here, we encourage 
or ask government of Egypt to do X and Y and Z. That should be 
private, and they should meet, too. Egyptian people, it is 
clear, we are dealing with whoever in charge. We are not 
influencing whom you choose.
    Mr. King. Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    You know, just to step back for a moment, you know, the 
shame here is that, in 2011, during the uprising, in the final 
days in Tahrir Square, you had 8 million people, 10 percent of 
the Nation's population, which really represented the largest 
pro-democracy movement in the history of world.
    To have such a disastrous outcome, I think, you know, you 
can certainly look to the Muslim Brotherhood in their 
misreading the situation by trying to impose Islamists' 
identity on Egypt, which is really a nationalist, you know, 
population. It is 90 percent Sunni, 10 percent Coptic 
Christian.
    So Morsi is thrown out, creates all kinds of instability. 
Sinai Peninsula, which is very strategic to us because of its 
close proximity to Gaza, because of its close proximity to 
Israel, seems to be overtaken by an al-Qaeda-influenced 
affiliate. Their activity seemed to be spreading to the 
mainland. They have surface-to-air missile capability or are 
believed to, which enhances, you know, their threat moving 
forward.
    You know, who is winning this thing? Is the military, in 
this period of flux, able to keep in check this al-Qaeda 
affiliate or al-Qaeda-encouraged or -endorsed activity? I mean, 
what is--what is the situation?
    Because there is two--there is two problems here. There is 
two problems here. You know, one is a failed state in Egypt is 
disastrous for Israel and the United States. Disastrous.
    So, you know, what is being done in the short term to stem 
this tide of al-Qaeda-influenced activity? You know, right 
beyond that, you know, what is--what is the way forward in 
terms of some kind of functioning government that can respect 
the rights of minorities, that can respect a separation of 
powers, that gives the people of that country that I think 
legitimately stood up 3 years ago for the things that we wanted 
them to embrace?
    That is a rule of law, that is minority rights, that is all 
the things that we value or at least, you know, a semblance of 
a democracy.
    How do we get back to that, I suppose, you know, is the 
question?
    Mr. Cook. Thank you very much, sir.
    You raise a number of very interesting and interconnected 
questions, and I think what I will do is I will answer them in 
backwards order, if you don't mind.
    It strikes me that we are in for a very long period of 
political tumult and political contestation in Egypt. We will 
not come back here on February 11, 2015, and talk about a 
stable political order in Egypt.
    Everything in Egypt now is contested and, as I said in my--
in my testimony, the authorities currently only have one answer 
to this, and that is the use of force and coercion, which has a 
dynamic effect on politics.
    There is something called the repression radicalization 
dynamic. So in a way, not to suggest that what is happening in 
the Sinai is a function of the July 3 coup, as I said, this is 
a situation that has been festering for quite some time, but 
the repression in the political system does create an 
environment where primarily angry young men may decide to take 
up arms to--in a way to redress their grievances because they 
are not able to do so through the political institutions of the 
state. That is a very dangerous situation.
    As I said, the Egyptian government is really--it is saying 
that it is pursuing a political process that will lead to a 
democratic opening. It is hard to see how that is the case with 
the kinds of repressive mechanisms and policies that they are 
pursuing at this point.
    In terms of your question, what is the capacity of the 
Egyptian armed forces to deal with the threat in the Sinai, it 
is actually limited. I think that they come to the--they come 
to the conclusion that they are in for a long, hard slog.
    But in many ways, we have helped create a situation through 
our military aid program that has made it difficult for the 
Egyptians to fight in the Sinai. That was a strategic goal of 
the United States. We didn't want the Egyptians to have an 
ability to fight in the Sinai.
    Now, 30 years on, they are confronted with a threat, a 
threat that we have raised with them any number of times over 
the course of the last decade, but they have been unwilling to 
prepare for it for their own reasons.
    So we can offer as much advice as we have, and they seem to 
be taking some of it. We can reassure them of our support for 
them, although I think that the administration's approach to it 
has not exactly reassured the Egyptians on this front. We can 
continue to encourage the rather robust security cooperation 
between Egypt and Israel. We can seek to institutionalize that 
security cooperation.
    But let's make no mistake about it. The low-level 
insurgency that is in the Sinai and that has reached into the 
Nile Valley and the connections to al-Qaeda that Mr. Joscelyn 
made clear is something that we are going to be living with for 
quite some time, and it is going to take time for the Egyptian 
military to be able to effectively deal with this--with this 
challenge. It took us many years in Iraq and Afghanistan. They 
are starting from a position way behind where we were in those 
conflicts.
    Thank you.
    Mr. Joscelyn. Well, Congressman, I think you have hit on 
the fundamental dilemma in all of this, which is the tension 
between sort-of short-term counterterrorism interests and what 
our long-term political or democratic interests should be in 
any country, really.
    Too often we get caught in this box between a dictator, 
sort-of, or a tyrannical regime and, you know, basically chaos, 
or--you know, or some bogeyman government. That is really the 
problem.
    I think, basically, as we move forward here, America's role 
should be to encourage, however we can, to opening up the 
political process, which, as my colleague here said, it doesn't 
look like, despite the promises, that is going to happen.
    You know, as you pointed out, they had millions of people 
in Tahrir Square and elsewhere rise up. You know, these were 
not al-Qaeda operatives. These were not jihadists. These were 
people who just wanted to escape Mubarak's regime.
    Really, in this fight, what we have learned in Iraq, what 
we have learned in Afghanistan, what we have learned elsewhere, 
is that is the center of gravity against this ideology that 
threatens us and threatens them, the al-Qaeda ideology and the 
al-Qaeda organization.
    To the extent the real answer is to make sure that the--we 
put pressure on the Egyptian government to not use too heavy of 
a hand to try and find the actors that they can basically work 
with against these entities in the Sinai, opening up the 
political process, but, also, you know, not using their power--
the Egyptian government's power to crack down legitimate 
political descent under the rubric of security operations. We 
have seen that now with journalists and others being arrested 
sort-of wholesale in Egypt, and a lot of that has nothing to do 
with security.
    So I think it is tough to do and it is easy to say that 
America should use its leverage to try and influence things 
along those lines, but that is basically what we have to do.
    Mr. Elmenshawy. Congressman, I believe a failed state in 
Egypt is bad news for all Egyptians and everybody except the 
terrorist group; and, therefore, we have to take this issue 
seriously.
    I believe the way forward here is to have inclusive 
government that will include everybody, including the Muslim 
Brotherhood, because they have huge base of Islamic-minded 
views, will be a golden opportunity for al-Qaeda to recruit 
them if they are not included in the political process Egypt is 
witnessing now. I believe we should talk to Egyptian government 
privately to convince them of the wisdom to be inclusive in 
terms of the political process way forward.
    I believe, as we--as it is believed for everybody, Sinai is 
the hub for terrorism in Egypt. A lot of jihadists return from 
Iraq and from Syria, and a lot of people coming from Libya and 
Sudan as well, and I believe Sinai is a time bomb.
    Without serious development effort inside Sinai and 
populating Sinai--Sinai is having only half million people in a 
land bigger than Jordan and Israel combined--this issue will 
live there. Terrorism will be a routine in Sinai without having 
serious development.
    Cairo elites used to ignore Sinai for decades after we get 
back from Israel in 1970s, after the big treaty in 1979, and 
since then it is marginalized, ignored. No serious development 
there. Needs just to visit any school in northern or southern 
Sinai or popular coastal to know what kind of qualities they 
have, the locals there. I believe, without developing it and 
populating Sinai, there is no easy solution for the issue of 
radical Islam and militancy inside the Peninsula.
    Mr. King. Should have at least one more round of questions.
    Again, I would ask each of you: What is the threat of 
foreign fighters or, if not foreign fighters, just Egyptians 
who are fighting in Syria now coming back to Egypt as more 
skilled terrorists, if you will? How much of a threat do you 
see that being?
    Mr. Cook. Thank you, sir.
    I think it is a very significant threat. Congressman 
Higgins raised the issue of terrorists having access to 
surface-to-air missiles. We know that an Egyptian helicopter 
was taken down by one.
    I think that--and it is believed that those who perpetrated 
this and a number of other attacks specifically on the minister 
of interior and others are Egyptians who have returned from 
jihad in Syria.
    The fact that Ayman Zawahiri, an Egyptian who is the head 
of al-Qaeda, has essentially extended his support to Ansar Bayt 
al Maqdis is an important development. Although there is a 
tremendous debate about where Zawahiri sits in terms of 
influence over al-Qaeda and al-Qaeda-affiliated groups, he is 
Egyptian. His entire life has been engaged in an idealogical 
battle against the Egyptian state.
    His extension of support, his call to Egyptians to fight 
this illegitimate government, risks significant numbers of 
Egyptians who have fought in Syria and Iraq now for many years 
back to Sinai and poses a very significant threat.
    Mr. King. Mr. Joscelyn.
    Mr. Joscelyn. Well, the September 5, 2013, suicide bombing 
that targeted the Egyptian interior minister was executed by a 
terrorist who had fought in Afghanistan, tried to fight in 
Iraq, and had fought in Syria.
    Just yesterday, actually, Egyptian officials said that they 
have been tracking the connections between his fellow plotters 
and what is happening in Syria, saying some of them fought with 
the Nusra Front, which is al-Qaeda in Syria, and that they have 
been tracking actually Syrians in Egypt as well.
    So these threats are--we have already seen them sort of 
metastasized. We have already seen this happen where the threat 
from the dynamic play between Syria and other nations in the 
region, including Egypt, is well in effect.
    The problem is, with the Sinai and all these things, as we 
have seen and, I think, principally what you are concerned 
about and what we have witnessed is that the threat to American 
interests can really manifest themselves across this network at 
any time. Okay?
    We have seen that now with al-Qaeda in Iran, with the plot 
against the train going into Canada. We have seen that with 
Pakistani Taliban, who had a bomber placed in Times Square. We 
have seen that with AQAP.
    The problem is that the Sinai is linked into this global 
network--okay?--as this Walid Badr, the suicide bomber, shows, 
as history shows, and the problem is that this basically means 
that a new threat can manifest itself through this network, 
through the Sinai, through Egypt, really at any time.
    Mr. Elmenshawy. I believe, Chairman, when we talk about 
foreign fighters or Egyptian hold forth in Syria and places 
like Iraq and Afghanistan, we should talk about Egyptian 
borders.
    Egypt border Libya and Sudan and Gaza and Israel, and I 
believe giving aid to Egyptian soldiers to control the border 
and give some training will help very much by eliminating this 
threat to a large extent.
    Of course, intelligence hearing about these people who move 
freely to and from Egypt, it is very important issue. That 
shouldn't be neglected to fight these cross-border terrorists.
    Mr. King. One country we haven't mentioned is Jordan, which 
is certainly in that neighborhood, which right now is 
overwhelmed with refugees from Syria, surrounded by hostile 
countries.
    Do you see any threat from any of these groups that could 
destabilize Jordan or any activity there just being so close in 
the neighborhood?
    Again, Dr. Cook and Mr. Joscelyn and Mr. Elmenshawy.
    Mr. Cook. Mr. Chairman, I will defer, in terms of 
expertise, on what is happening specifically in Jordan, but I 
think that it is----
    Mr. King. I was thinking more of potential threat.
    Mr. Cook. Right.
    I think that the huge numbers of refugees in Jordan, the 
pressure on that country and--combined with the very 
significant fight on its borders in Syria and Iraq poses a 
significant threat because of these--these networks.
    Remember that Jordan was a target of al-Qaeda during the--
our occupation--invasion and occupation of Iraq. I think that 
these jihadist groups see the region, broadly speaking, as one 
battlefield.
    So I think that there is as much--the threat in Egypt is 
certainly far more acute because of the political situation 
there, but I certainly don't think that we could talk about 
stability in the region. I think we need to talk about relative 
instability.
    I certainly would include Jordan and the fact that there 
are so many foreigners now in that country. Obviously, 
jihadists, as I said, see the region as one battlefield, that 
we have to include it as a potential--a potential problem area.
    Mr. King. Mr. Joscelyn, I guess, in addition to what Dr. 
Cook said, I am thinking about the ripple effect or the carry-
on effect of what would happen in the Sinai affecting Jordan, 
even though it is not directly involved, how that could have an 
impact.
    Mr. Joscelyn. Well, that is certainly possible. We have 
already seen it the other way with Syria's ripple effects into 
Jordan because, in late 2012, there was actually a very 
complicated multi-staged attack that was planned by Nusra 
Front--Nusra Front fighters who were re-purposed for a 
terrorist attack on the U.S. embassy.
    Basically, this was supposed to be a cascading attack where 
they were going to attack numerous targets on their way to the 
embassy and, as sort of security forces scrambled, then they 
were going to up the ante and attack our embassy. That was--
that was launched by fighters who had trained and fought in 
Syria.
    As I said a couple of times now, the point is that what is 
happening in Sinai is not distinct from any of these other 
networks. They are tied in. They are linked in. So the problem 
is that this can manifest itself very quickly across the 
network.
    Mr. King. Mr. Elmenshawy.
    Mr. Elmenshawy. I would just add that Jordan used to have 
and still hundreds of thousands of refugees in Iraq and 
recently in Syria.
    Now I look at Syria and Iraq and I believe they manage it 
very well so far. We don't see any Jordan-related terrorist 
attack in big magnitude in last few years or few months.
    However, the proximity of Sinai to Jordan makes, of course, 
a concern, especially that militants in Egypt attack the gas 
line that was fought in Jordan before and Israel as well. I 
believe it is something we should be aware of about.
    Mr. King. My understanding is that that attack on the 
pipeline is--caused tremendous economic damage in Jordan.
    Mr. Joscelyn, you want to say something?
    Mr. Joscelyn. Actually, that is a central feature of the 
propaganda that comes out of ABM and Ayman Zawahiri on the 
pipeline attacks. They list off a number of reasons.
    One of the ABM videos I reviewed just recently has some 
commentator from Egypt going through all the economic damages 
that caused Israel and others, including Jordan.
    This is a central feature in Ayman Zawahiri's talking 
points, that, basically, this causes great economic calamity 
on--you know, now, some of it is hype, but this is basically 
their central message.
    Mr. King. Okay. Thank you.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    You know, I thought when bin Laden was captured and killed 
that it was going to be the end of al-Qaeda. At least some had 
argued that because bin Laden was the charismatic leader and, 
much like, you know, Nazis with Hitler, members of al-Qaeda, 
you know, gave a blood oath to bin Laden that, you know, he 
would--they would--they would follow his rule.
    But it seems as though--you know, obviously, we have not 
had the end of al-Qaeda, but al-Qaeda-ism has seemed to have 
perpetrated a lot of really troubled spots, and they don't all 
seem to be in alignment. You know, you had that one al-Qaeda 
leader, Abu Bakr al-Baghdadi in Fallujah, not entirely aligned 
with some of the leaders that we are traditionally familiar 
with.
    So I suppose, you know, the one question is: In the short 
term, what do we fear most? Do we fear a consolidation of al-
Qaeda in targeting a specific strategic area like Egypt or 
recruitment of new members in the short term?
    Mr. Joscelyn. Well, actually, again, I think you have hit 
on a fundamental question about, really, what is al-Qaeda and 
what it is all about.
    The fundamental misunderstanding, I think, in the United 
States and in the West has been to always conceive of them as 
solely terrorists who are interested in the big mass-casualty 
attack.
    The truth of the matter is, if you go through the strategic 
doctrine, if you go through what bin Laden was about, what 
Zawahiri is about, they have always conceived themselves as 
political revolutionaries. Attacking us and our interests was 
always a step in their long game to try and acquire political 
power for themselves and ideology.
    Now the question becomes: How are they doing in that 
regard? Unfortunately in Syria, the Sinai, and elsewhere, they 
are doing quite well, because what is happening is they are 
winning new converts.
    You mentioned Abu Bakr al-Baghdadi, the head of ISIS. The 
reason he was basically excommunicated from al-Qaeda was he 
didn't get that. He wasn't playing that revolutionary game very 
well, whereas, the guys in al-Qaeda senior leadership wanted to 
play that game and have designated as their appointees in Syria 
to play that game are playing it much better. That is the 
concern.
    So what I say is, if you look back through the history of 
al-Qaeda and how mass-casualty attacks on us are manifested--
okay?--including like the 9/11 plot, the pilots for the 9/11 
were recruited initially to fight in Chechnya. That is what 
they were recruited for, an insurgency that al-Qaeda had a hand 
in. A couple of the musclemen for that plot actually fought in 
Bosnia, as Khalid Sheikh Mohammed, the mastermind of it.
    So the point is that, if you look at these terrorist 
attacks against us, historically, they have been very much 
connected to these insurgencies that al-Qaeda had its footprint 
in.
    That is really the danger, that, basically, the next Khalid 
Sheikh Muhammed, the next muscle hijackers, the next guys like 
this, could be fighting in Syria today, could be fighting in 
the Sinai, could be fighting somewhere else. That is what the 
real danger is.
    Mr. Cook. If I might add, I don't disagree with anything 
that is said, but I think it is important, because we are 
talking about the Sinai, we are talking about Egypt, to 
recognize that in many ways Egypt is a crucible of trans-
national jihadists, that the intellectual framework for the 
kind of terrorist threat that we are seeing now were laid in 
Egypt in the 1960s and 1970s.
    It has come to fruition in important ways in that Egypt has 
produced a veritable all-star list of trans-national jihadists, 
and that is why Sinai and Egypt have a special place, in 
addition to the fact that Ayman Zawahiri is now the leader of 
al-Qaeda.
    Certainly al-Qaeda adherents swore a blood oath to Osama 
bin Laden, but in many ways this is--you know, in a big way, an 
Egyptian organization, and that is why I think the threat from 
the Sinai, the support that Zawahiri has given to Ansar Bayt al 
Maqdis, in particular, suggests that we are going to be 
observing a very significant fight there for quite some time.
    Mr. King. Okay. The gentleman yields back.
    Ms. Jackson Lee is here. I would just--if she has 
questions, we have to adjourn a hard time of 4:15. So if you--
--
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I didn't know if the Ranking Member had posed questions 
already. Thank you both very much for the opportunity.
    Let me just, having not sat in on the testimony--and I 
thank the gentlemen very much for your presence here today.
    Let me go with Dr. Elmenshawy. Do I have it almost correct, 
Professor?
    Just in light of what I am gleaning from the growing 
presence of al-Qaeda--I would hesitate to say epicenter--what 
impact will the potential elections and the potential candidacy 
of the head of the military, which I understand may still be a 
potential viable candidate, have?
    Second: What is the impact of the trial of the former 
President Morsi with respect to the Muslim Brotherhood and its 
connection to al-Qaeda?
    Is there--we have always looked to the agreement that we 
have had with Egypt and Israel for a very long time and the 
then-stability, at least as it relates to the relationship and 
the stability in the Mideast, and it does not reflect on how 
the Egyptians were being treated.
    But what--how unstable is that area, particularly as we are 
looking at the negotiations between Israel and the 
Palestinians?
    Mr. Elmenshawy. Thank you, Madam Congresswoman, for your 
question.
    As for first point which Field Marshal El-Sisi expected 
declaration of running candidacy--his candidacy run for the 
president, I believe it won't affect Egypt's effort to fight 
terrorism at any level. I believe it is beyond the president 
of--the next president of Egypt.
    But if the military-declared roadmap is taking place 
without including all political forces, it will be short of the 
expectation of most Egyptians and it makes--the mission and the 
goal of al-Qaeda is much easier to recruit angry and frustrated 
Brotherhood views who expected democracy to provide some 
opening, some place to express their wish, their desire and 
expectations, and now they will be banned from the political 
game in Egypt, which I am afraid it will let them find another 
way, which will be to join the militant groups in Egypt and 
Sinai.
    So I believe the name of the next president is irrelevant 
to our discussion and to the threat Egypt is facing in term of 
growing terrorism.
    As I tried for the former President Morsi, I believe it is 
another good tool to convince these angry Egyptians or people 
who believed in Morsi and voted for him, democracy doesn't 
work.
    I believe one serious issue, he is facing serious crime, 
espionage, and the only punishment in Egyptian law is capital 
punishment.
    So assuming the elected president not only in Egypt, in the 
entire Arab world, for the case will never have elected head of 
state to stand such a trial and be executed, that is what kind 
of message would send for young Arabs and young Egyptians?
    I believe it would be a wrong message. So I hope insurgents 
in Cairo will be more wise to deal using political solution for 
this crisis, not military solution or security solution, as 
they do so far.
    As for the Israeli, as I mention here, I believe it--the 
biggest group we have in Egypt now is--militant group using al-
Qaeda-style attacks is Ansar Bayt al Maqdis. Its name given 
tell us the relation with Israel and Arab-Israeli conflict. 
``Ansar Bayt al Maqdis'' means ``companion of Jerusalem.''
    So Jerusalem is still in the minds and the recruiting tool 
for this jihadist. As long as Arab-Israeli and Palestinian-
Israeli conflict is not resolved totally and fairly, I believe 
it will be a good opportunity to recruit more radicals and more 
young angry Arab and Palestinians to join the fight for al-
Qaeda.
    Ms. Jackson Lee. Mr. Joscelyn, if I could quickly, then, as 
you listen and, I guess, as you are articulating here today, 
whether--whoever might be running for office in Egypt, the 
witness, Mr. Elmenshawy, indicated that, if you are not 
embracing--you still have this contingent of angry Egyptians, 
is that what you are speaking to in terms of the fuel for al-
Qaeda and that that then can spill over into actions against 
the United States that we should be very wary of?
    Mr. Joscelyn. I think that is absolutely part of the 
problem. I think----
    Mr. King. Mr. Joscelyn, if you keep your answer to 2 
minutes because we do have to adjourn at a hard time.
    Mr. Joscelyn. I will do it real quick.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Joscelyn. I think we have already seen some poaching by 
ABM--that's Ansar Jerusalem--and Sinai of Muslim Brotherhood 
members. You can see that in some of their videos. They are 
capitalizing off the anger of what is going on inside Egypt.
    You mentioned the trial of former President Morsi there. I 
think this is an important opportunity. Some of the allegations 
that have been made by the new Egyptian ruling regime really go 
far and beyond what I think are probably plausible.
    They have--one of the allegations is that Morsi was 
actually on the phone with Ayman Zawahiri, the head of al-
Qaeda, and was involved in all sorts of conspiring. This is the 
type of thing, I think, if you are in the U.S. Government, you 
should be able to challenge the Egyptian regime on and say, 
``Okay. Show me the transcript. Show me the audio of this 
alleged phone call that you are talking about.''
    Because it is one thing to talk about legitimate sort-of 
problems and legitimate security concerns. It is another to use 
those as tools to sort of squash political dissent.
    Mr. King. Let me----
    Ms. Jackson Lee. Thank you, Mr. Chairman. I yield back.
    Mr. King. Ms. Lee yields back. Thank you.
    I want to thank the witnesses for your testimony today. 
Again, I apologize for the delay at the start. It was--just 
turned out to be one of those days, and I certainly regret that 
because I know the staff put a lot of work into this and the 
Ranking Member and I.
    But you certainly--again, the testimony you provided is 
going to be in the record. I certainly found it very, very 
enlightening, very sobering, also. So I want to thank you for 
that and for the time you have given us.
    Members of the subcommittee may have some additional 
questions. So if they submit them to you in writing, we would 
greatly appreciate you responding to them.
    Ranking Member, have----
    Mr. Higgins. That's all.
    Mr. King. Okay. Without objection, this subcommittee stands 
adjourned. Thank you again.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]

                                 [all]

</pre></body></html>
